<html>
<title> - UPDATE ON THE STATE OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                       UPDATE ON THE STATE OF THE
                  U.S. DEPARTMENT OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 2009

                               __________

                           Serial No. 111-49

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
53-434                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            October 14, 2009

                                                                   Page
Update on the State of the U.S. Department of Veterans Affairs...     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    38
Hon. Steve Buyer, Ranking Republican Member......................     3

                               WITNESSES

U.S. Department of Veterans Affairs, Hon. Eric K. Shinseki, 
  Secretary......................................................     5
    Prepared statement of Secretary Shinseki.....................    39

                       SUBMISSION FOR THE RECORD

Mitchell, Hon. Harry E., a Representative in Congress from the 
  State of Arizona, statement....................................    45


                       UPDATE ON THE STATE OF THE
                  U.S. DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                      WEDNESDAY, OCTOBER 14, 2009

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.
    Present: Representatives Filner, Brown of Florida, Snyder, 
Michaud, Herseth Sandlin, Hall, Halvorson, Perriello, 
Rodriguez, Donnelly, McNerney, Space, Walz, Adler, Nye, Buyer, 
Moran, Brown of South Carolina, Boozman, Bilbray, Bilirakis, 
and Roe.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning. Welcome to the Committee on 
Veterans' Affairs hearing today.
    Mr. Secretary, we are glad to see you and we appreciate the 
job you are doing.
    Secretary Shinseki. Thanks, Mr. Chairman.
    The Chairman. I ask unanimous consent that all Members may 
have 5 legislative days in which to revise and extend their 
remarks. Hearing no objection, so ordered.
    Mr. Secretary, we were very glad when you were selected and 
confirmed and our confidence in you has not waned. We believe 
you are doing a great job. I know you were called a soldier's 
soldier when you were in the Army and now we are calling you a 
veteran's veteran. We thank you for all the work you have done.
    I am going to quote a former presidential candidate, Adlai 
Stevenson, who said patriotism is not short outbursts of 
emotion, but the tranquil and steady dedication of a lifetime. 
I think that applies to our servicemembers and veterans who 
have proven their dedication, and it also applies to you, Mr. 
Secretary.
    America must continue to show this tranquil and steady 
devotion to the heroes that have fought on the battlefields and 
have returned home. The way in which we treat our veterans has 
a direct impact on our ability to recruit men and women in the 
future and is a reflection of the values and ideals we hold as 
a Nation.
    The U.S. Department of Veterans Affairs (VA) oversees what 
is the largest integrated health care system in the country and 
operates a vast array of benefit programs meant to support and 
salute our soldiers, sailors, airmen, and Marines. Together, 
Mr. Secretary, we have taken great strides in this 111th 
Congress to provide our veterans with the quality health care 
and services that they required and that they have earned.
    I share your goal to build better lives for America's 
veterans and their families and survivors. We made a contract 
with our veterans and we must keep it.
    I would like to thank you, Mr. Secretary, for requesting 
veterans' funding levels that appropriately reflect the needs 
of our veterans more than any other budget requested by a 
President since I have served on this Committee.
    The House approved a funding bill that adds $14.5 billion 
over the current fiscal year and this is the third straight 
budget to exceed the request of the Independent Budget.
    In fact, in the 3 years or the 3 budgets that we have 
overseen together, we have raised the health care budget 60 
percent or more than $20 billion. I think that is something to 
be really proud of.
    Although this year's funding bill has not yet been enacted, 
I am proud that we have put forward a budget that is worthy of 
the service and sacrifice of our veterans.
    I am also grateful, Mr. Secretary, for your leadership in 
working with Congress to establish a historic new approach to 
providing adequate and timely funding for veterans' health 
care.
    Last week, the House passed and last night, the Senate 
passed a bill that responds to late budgets by allowing 
Congress to fund VA health care 1 year in advance. The bill is, 
of course, a top priority for veterans service organizations 
(VSOs) because it will make sure we are not subject to delays 
and uncertainty in the political process and will finally allow 
sufficient time to plan how best to deliver health care.
    This is almost a revolutionary way of dealing with this 
issue, Mr. Secretary, and the bill is on its way to the 
President for his signature.
    We know that the VA has faced the issue of caring for our 
returning servicemembers and the veterans of previous 
conflicts. We have the dual challenge of meeting both needs, 
especially in the areas of traumatic brain injury (TBI), 
musculoskeletal conditions, post-traumatic stress disorder 
treatment, and maintaining excellence in specialized service 
and addressing access to care issues. These are challenges that 
we are working on together and challenges we must meet as a 
Nation.
    Mr. Secretary, across the Nation, veterans who applied for 
benefits under the Post-9/11 GI Bill are experiencing problems. 
This bill was a proud accomplishment of this Congress, but we 
have been told that payments are being delayed because of 
overwhelming problems in the universities and at the Department 
of Veterans Affairs.
    Although you have taken the lead in issuing emergency 
$3,000 checks to students, many veterans still say they do not 
know when they are going to get their full payments. We hope 
that ongoing implementation will catch up with the demand. Of 
course, we are looking forward because I think these veterans 
will be able to take part in the economic recovery of our 
Nation.
    We are also faced with the issue of providing benefits 
earned by veterans in a timely fashion. The VA must address the 
growing backlog of claims filed by those that served in 
uniform. We must tackle this issue that stymies our wounded 
veterans from receiving the benefits they earned and deserve.
    Mr. Secretary, we are looking forward to hearing your views 
on the successes and the challenges that face us and our 
veterans. We are anxious to hear how we can help you address 
these issues. We are grateful to you as well as the devoted 
employees in the VA for the dedication to veterans that you 
demonstrate day after day.
    No matter where we stand on the current conflict as a 
policy issue, we are here today because we must be united in 
seeing that our brave servicemembers are welcomed back with all 
the compassion this grateful Nation can bestow.
    Mr. Secretary, again, welcome to the hearing.
    I will recognize Mr. Buyer for an opening statement.
    [The prepared statement of Chairman Filner appears on p. 
38.]

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Thank you, Mr. Chairman. I appreciate your 
comments and I associate myself with your comments this 
morning. I appreciate the words that you have spoken today.
    The Chairman. You want me to have a heart attack?
    Mr. Buyer. I would like--well, I almost did. But I am okay 
now. I like it. Colonel, you did a good job with those remarks 
this morning.
    I do not know. General, you might want to get us right now. 
Good morning. And I welcome everyone to today's hearing and I 
would thank all the Members for their attendance. It is a 
pleasure, Mr. Secretary, for you to be back.
    And I am not going to apologize. I guess sometimes I prefer 
to call you a General because I look at you as a soldier and I 
think a lot of the judgments that you make on behalf of 
veterans, you do it through the prism of a soldier. So when I 
may refer to you as General, I do not mean any disrespect for 
your present title as Secretary.
    These first few months that you have taken over have been 
challenging, but I want to congratulate you in how you have 
formulated your staff and the way you have also been a pretty 
good student. Too often I think Americans are open to the 
criticism that we get so eager to move toward solutions that we 
do not pause to thoroughly understand the problems.
    And so you have come in to put your own eyes on some of 
these challenges throughout the Department, all departments, 
and I want to compliment you for doing that.
    There is no shortage of critics when it comes to the VA and 
there are a lot of people who are very anxious to tell you how 
to do your job. And you have stepped forward to provide 
strategic guidance and to do the very best you can. And for 
that, I extend my compliments and gratitude.
    The challenges that you have stepped into is almost a 
runaway train and so how do you stop that train? Do you get in 
front of the tracks? Do you try to derail? Do you try to slow 
it down?
    And some of those challenges deal with the backlog of 
disability claims that continues to expand. And the 64,000 
veterans that have enrolled for classes and the fact that only 
41,500 have received the payments under the new GI Bill, you 
have taken some corrective action, but the challenges remain.
    The discoveries of egregious medical errors hamper the 
Veterans Health Administration (VHA) and it continues over 
time. I have been on the Committee for 17 years and every 
Secretary after Secretary after Secretary continue to provide 
maintenance to a health system that continues to have quality 
assurance and risk management issues. Every health system seems 
to have them. So it is a job that never seems to end.
    I know you realized, even prior to your confirmation, that 
you were taking on these enormous challenges. What has become 
evident, what I find encouraging is that you are a man of 
principle who is forthright about the areas of the VA programs 
that require improvement.
    I had learned in my work with you when I served on the 
Armed Services Committee that you embrace military values and 
that you apply these values when you face these challenges. 
That is why I think I prefer to call you General.
    We will strive to help you in any way we can and we view 
you as a partner in our efforts. This requires taking a hard 
look at where we are and charting the course ahead. So I look 
forward to our frank discussions. And you have been very candid 
with me in private discussions as we seek to provide cures.
    To start, though, is the troubling problems surrounding the 
ever-expanding backlog of claims for disability benefits. Since 
January, the backlog has ballooned by 14 percent. The current 
data indicates now that 36 percent of the VA's claims inventory 
exceeds the strategic target of 125 days.
    You and I are both aware that the only real solution to 
correcting this tremendous disservice to our veterans must 
include the development of an adjudication system that reduces 
the errors and is based on advanced technology that is 
electronic and paperless. And you brought that up the other 
morning at a breakfast.
    I am curious and I would like for you to share with us that 
after months and months of efforts in selecting a private 
contractor capable of performing such a large-scale 
integration, the VA had canceled that contract. And we were not 
informed of it.
    So if you could let us know as to why that contract was 
canceled, I think it would be helpful to us because I do not 
want there to be criticism then that says, well, you canceled a 
contractor and, therefore, does that mean that we went back to 
square one and we have got another year or more before such 
development can begin to take place? What did that, in fact, 
contribute to the backlog? And I want you to have the 
opportunity to explain that.
    I also believe Congress should accept some of the blame for 
creating such a complex and difficult benefit to administer. 
The burden, though, I will acknowledge that we created this 
challenge and the burden lies upon you to supervise and find a 
way to prevent the delays that are causing the financial 
difficulties for veterans whose sole focus should be on their 
studies with regard to the new GI Bill.
    I applaud your recent action and that is why I associate 
myself with the Chairman's comments regarding the emergency 
payments that enable veterans to pay rent and eat regularly. 
All of us on the Committee, I think, have had to deal with 
these complaints and concerns coming from veterans from our 
Congressional districts who are now trying to obtain the GI 
benefit. We need to fix the program and I am here to offer you 
whatever assistance we can provide.
    You and I had a conversation about technical legislative 
corrections, that there are some corrections that you can do 
through your executive powers, but there are other corrections 
that maybe need to be legislative. So I look forward to working 
with the Chairman and Members of the Committee and Ms. Herseth 
Sandlin and Dr. Boozman on moving a way forward to do that. But 
we need to hear from you.
    I would suggest a few items that may make the VA's job a 
little easier such as making an initial stipend payment to the 
veterans for all title 38 education programs for 2 months that 
would be recouped over the academic year or delaying payments 
to schools until later in the semester to avoid over and 
underpayments of tuition and fees due to changes in the 
veteran's schedule.
    Another idea would be to require veterans in the new 
program to verify their status on a monthly basis just as in 
the Montgomery program as a means to lessen overpayments.
    It is also time, and I will throw this on the table for 
consideration, I think it is time to standardize the rules 
across the chapters, Chapters 30, 32, 33, and 35. It makes no 
sense to continue the varia of the administrative procedures 
across all of those programs. In my view, as you are trying to 
move toward an information technology (IT) solution, there 
should be one set of rules for everyone. And I hope the 
Department will work closely with the Committee to accomplish a 
consolidation of the programs.
    Another area of concern is the patient safety. It was 
reported back in March that the VA potentially exposed 300 
veterans to endoscopes that were not properly disinfected. That 
number now, I think is now, the pool, risk pool is in excess of 
10,000. And I know this is a great challenge that you face and 
you are off your heels and on your toes to make corrective 
actions. Any updates you can provide us on that would be 
helpful.
    I read your statement last night and so I see where you 
have addressed the patient safety issues, but it is an area of 
great concern and requires your continuous maintenance and 
forethought.
    I appreciate you being here today and we look forward to 
your testimony.
    With that, I yield back to the Chairman. Thank you.
    The Chairman. Thank you, Mr. Buyer.
    Mr. Secretary, the floor is yours.

STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY, U.S. DEPARTMENT 
                      OF VETERANS AFFAIRS

    Secretary Shinseki. Thank you. Mr. Chairman, Ranking Member 
Buyer, distinguished Members of the Committee, thank you for 
this opportunity to report on the state of the Department of 
Veterans Affairs.
    I apologize to the Chairman and Members of the Committee 
for the late arrival of my written testimony to this Committee, 
but I ask Mr. Chairman that it be allowed to be included in the 
record.
    The Chairman. It shall be. Thank you.
    Secretary Shinseki. I appreciate this Committee's 
longstanding support and commitment to veterans. And I mean 
that sincerely. It comes through rather clearly on all of our 
engagements, but it is demonstrated once again by your passage 
of the advance appropriations measure for VA. And I will add my 
comments here to the Chairman's and Ranking Member's--this is a 
tremendous opportunity for VA and I thank this Committee very 
much for its support.
    As the Chairman pointed out, I understand the measure is on 
its way to the President. And so, once again, I congratulate 
the Members of this Committee on behalf of veterans.
    Let me also express my thanks to the Congress and the 
President for a 2010 budget that has provided the Department an 
extraordinary opportunity to begin transforming itself. We are 
determined to provide a return on that investment, a return 
that veterans deserve and that you, on this Committee, expect.
    I would like to acknowledge the presence of representatives 
from some of our veterans service organizations who work with 
us quite closely. They help us meet our obligations to all 
veterans.
    In the last 8 months, I have learned a lot. I have learned 
from veterans I have engaged individually, collectively, in 
groups as I have encountered them, learned from Members of this 
Committee, from the VSOs, we have worked with the major ones, 
from my own employees who come to work every day to serve 
veterans. And I thank the Chairman for his remarks about our 
workforce.
    I visited VA facilities across the country, large, small, 
rural, urban, and received detailed briefings from each of the 
21 Veterans Integrated Services Network (VISN) directors, 
dedicated time for them to talk to me about their requirements, 
tell me about their priorities, talk to me about how they 
measure performance and quality and safety inside their 
operations, and then listened to them talk about their 
resourcing, what they have been able to do, what more they want 
to get done, resources in terms of people, money, time.
    I thank the Ranking Member for his comments about my 
previous profession. I am very proud of that time and my 
opportunities to work with the Congress.
    I am a soldier and a veteran. I would just say that I have 
stood on lots of ranges watching good organizations challenge 
themselves to get better. Not unlike those organizations, I 
find myself right now standing on a range with the VA, a VA 
that is deeply committed to veterans, and challenging itself to 
be better. I intend to help them get there.
    When I first appeared before this Committee this past 
February, I provided three vectors that I intended to begin to 
focus on to begin the transformation of VA. These were not 
visionary. These were just tried and true rules that I have 
carried with me for a while--people-centric, results driven, 
forward looking. Those vectors remain unchanged.
    As proud as I am of what we have accomplished overall in 
the last 9 months, there have been, as both the Chairman and 
Ranking Member have pointed out challenges, missed 
opportunities, and gaps in providing the quality care and 
services veterans deserve and expect.
    In recent months, I have discussed with Members of the 
Committee VA's shortfalls in timely delivery of Post-9/11 GI 
Bill benefits, localized lapses in medical quality control, 
erroneous Amyotrophic lateral sclerosis (ALS) diagnosis 
letters, and IT programs that were not meeting our 
expectations.
    We have aggressively disclosed these issues when we have 
discovered them to establish high standards and accountability 
and transparency. We will continue to do that.
    Most of the shortcomings were discovered by our own staff 
and then publicly disclosed. In each case, we notified the 
Congress, VSOs, veterans, and the public. Forthrightness was 
the right thing to do and transparency, I am convinced, will 
ultimately result in a higher level of trust and the quality 
and the safety of VA's services.
    Complications in implementing the Post-9/11 GI Bill 
required VA to make advanced payments to affected veterans to 
cover their expenses and to relieve their uncertainty and 
stress. There are many reasons for those complications, but the 
delays were unacceptable.
    Advanced payments remain in effect. That is the emergency 
procedure we put into effect 2 weeks ago. Advanced payments 
remain in effect as we mature our IT tools to assure timely 
delivery of checks in the future. And I am hopeful that in 
early November we will have the phase three automated tool for 
our use.
    VA's IT issues, the third of those topics, are significant. 
Many projects are challenged by the inability to meet costs and 
scheduled performance measures. So we implemented a program 
called PMAS, Program Management Accountability System, this 
past June to address those problems. We expect to bring all IT 
projects under PMAS within the next year.
    The first 47 programs were placed under PMAS in mid July 
because of our concerns. We paused 45 of them. Many of them 
were over a year behind schedule. Over the last 60 days, 17 of 
those projects were committed to near-term dates and 15 met 
those committed dates. Thirteen projects were replanned and 
have been restarted. Fifteen projects have been stopped or 
reduced in funding.
    Likewise, more broadly at VA, we have a strategic 
management process in place now. It has just been put into 
place. It is a fledgling effort here to manage our assets at 
the strategic level. This is designed to improve the quality 
and the accessibility of care and services, to increase veteran 
client satisfaction with the health care and benefits we 
provide, to raise readiness in providing services and 
protecting people and assets during crises, and to improve 
internal customer satisfaction with support services.
    Every day 298,000 people come to work at VA to serve 
veterans. Their dedication and their good work are the driving 
force behind successful innovations and effective collaboration 
that is accomplished inside the VA.
    Employees in our Office of Information and Technology 
(OI&T) and the Veterans Benefits Administration (VBA) 
collaborated with the White House to solicit original ideas 
from VA employees and participating VSOs ranging from improving 
process cycle times to improving veteran satisfaction with the 
claims process. Over 3,200 process improvement ideas have been 
received in this effort, and all of them are under review.
    Last Friday, a long-term collaborative effort between VA, 
the U.S. Department of Defense (DoD), and the Congress came to 
fruition and legislation formally establishing the Federal 
Health Care Center in North Chicago (FHCC), a collaborative 
effort of both departments, the DoD and VA, and the Congress 
that results in the FHCC, the Federal Health Care Center, 
merging two entities, the Great Lakes Naval Hospital and VA's 
North Chicago Medical Center, a hugely difficult task, two 
cultures, many different processes and systems. The result is a 
model for the future in how we provide care to our veteran, 
active duty, Reserve component clients and their families.
    Three weeks ago, VA employee, Dr. Janet Kemp, received the 
2009 Federal Employee of the Year Award from the Partnership 
for Public Service. Under Dr. Kemp's leadership, and the 
innovation of her team, VA created the National Suicide 
Prevention Hotline to help veterans in crisis. In just over 2 
years, the hotline has received more than 185,000 phone calls, 
an average of 375 per day, and interrupted over 5,200 potential 
suicides in progress.
    In the last year, the dedicated professionals of our 
National Cemetery Administration, the NCA, provided honors and 
final resting places to over 107,000 veterans. NCA consistently 
meets the needs of interring our heroes and exceeds the 
expectations with regard to care and compassion for their 
surviving families.
    We are determined to move forward in 2010 with critical new 
initiatives for veterans, everything from reducing homelessness 
to providing better rural health care, developing programs to 
better serve women veterans, raising our quality and safety 
standards in health care, and improving our infrastructure.
    Our mission is to serve today's veterans and prepare for 
tomorrow's veterans by increasing access to VA benefits and 
services providing them the highest quality and best value 
available in health care.
    Informing veterans about their choices and earning their 
confidence in our insurance, our health care, education, home 
loans, and counseling programs will allow VA to be a provider 
of choice and serve as an example of good governance for others 
seeking similar outcomes.
    Our Nation's 23.4 million veterans deserve consistent, 
timely, high-quality delivery of benefits and services. They 
put themselves on the line for our safety and our well-being. 
Young men and women continue to do so today and we must 
anticipate, develop, and deliver the benefits and services they 
will require as they leave military service in the years ahead.
    Again, Mr. Chairman and Members of the Committee, thank you 
for this opportunity to appear here today. I look forward to 
your questions.
    [The prepared statement of Secretary Shinseki appears on p. 
39.]
    The Chairman. Thank you, Mr. Secretary.
    I will give the opportunity to all Members to interact with 
you.
    Ms. Brown.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for coming here today. First 
of all, let me thank you for participating in the Congressional 
Black Caucus Annual Legislative Conference. It was well 
received. We had standing room only, 12 former generals, so you 
can see there is a great interest in the VA and its policies. 
It was interesting and informative.
    I appreciate the announcement you made yesterday adding 
Parkinson's and some other service-connected presumption, 
disease relating to Agent Orange. Thank you very much. This 
common sense and compassionate decision will make life easier 
for many of our veterans.
    I also want to thank you for helping to move along the 
Orlando hospital that has been in the making for over 25 years. 
It is just unacceptable that it takes 25 years from the 
planning until we actually implement a hospital that is greatly 
needed.
    In addition, we have been having lengthy discussions for 
over 3 years discussing the medical clinic in Jacksonville. I 
want to thank you for your intervention and I hope this project 
will move along.
    Last, I want to mention that 5:00 yesterday morning I was 
watching television and they discussed the VA and the GI Bill. 
They clearly do not have it correct. I think it is important 
that we all inform the news media as to the process. It is a 
process that includes not just the students, the VA, but also 
the institutions. They have a responsibility to verify that the 
student is enrolled and in good standing and have not dropped 
and added so they can receive the funds. So it is a 
partnership. And the news media and the veterans and the 
institutions need to understand the process. And I think we 
need to do a better job in educating the community.
    So thank you again for being here.
    The Chairman. Thank you, Ms. Brown.
    Ms. Brown of Florida. May he respond.
    The Chairman. Yes.
    Secretary Shinseki. Congresswoman Brown, thanks for the 
comments on both medical centers. I have assured you and I will 
do it again here that the Jacksonville clinic has my attention. 
I am still working through some of the what I will call delays, 
because I do not know, I cannot categorize them any other way. 
But at some point, it is my intent to bring all parties 
together. And if you are willing and able, you and I will hear 
the issues out and make sure this moves forward. My intent is 
to have this move forward. It has languished long enough.
    And then a follow on to that. There, I think, is a 
requirement to provide another health care entity that services 
another group of veterans that lives on the outskirts to the 
west and north of downtown Jacksonville. We have that in 
planning and it is our intent to put that in the queue as well.
    Ms. Brown of Florida. Thank you.
    And can you discuss the GI Bill, this wonderful program 
that we are having some challenges with, but it is a win-win 
for the veterans, and for the community, especially in these 
hard times. The opportunity to go back to school and retrain is 
a win-win.
    Secretary Shinseki. Yes. I have been very clear about how 
important this program is not just to the VA but to me 
personally. It is, you know, an aspect of myself coming back 
from Vietnam and having an opportunity to go back to do 
graduate schooling. I understand the importance of this 
program.
    But it is even more important to the country. The potential 
that will come out of this if we go back and look at what 
happened after World War II, what that program provided to our 
country in terms of leadership for the second half of the 20th 
century, that is what we are about to realize here. And the VA 
has an important role to make sure this happens.
    I would just, for those in the Committee who share a little 
experience with me about things military, we do a lot of 
planning. The first paragraph in most military plans is listed 
as assumptions. We do that because we know we do not know all 
the facts. And when it comes time to execute a plan, we must 
reroll each assumption and if they do not bear out, we have to 
do something about it.
    And so that in a simplistic way describes what happened 
here. A plan was written, very quickly put together, very short 
timelines. I am looking at the certificates of eligibility 
being processed on 1 May, enrollments 6 July, checks having to 
flow 3 August, a very compressed timeframe. And in order to do 
that, we essentially began as I arrived in January putting 
together the plan, reviewing the plan that was there and trying 
to validate it.
    I will be frank. When I arrived, there were a number of 
people who told me that this was simply not executable. It was 
not going to happen. August 3rd was going to be here before we 
could have everything in place. I consulted an outside 
consultant, brought in an independent view, same kind of 
assessment. Unless you do some big things here, this is not 
possible.
    To the credit of the folks, the good folks in VBA, they 
took it on and they went at it hard. We hired 530 people to do 
this and had to train them. We had a manual system that was 
computer assisted, not very helpful, but that is what they 
inherited.
    And we realized in about May that the 530 were probably a 
little short and so we went and hired 230 more people. So in 
excess of 700 people were trained to use the tools that were 
coming together even as certificates were being executed.
    We were short on the assumption of how many people it would 
take. We based our numbers on the Montgomery GI Bill which is 
about a 15-minute procedure. The Chapter 33 procedures, about 1 
hour on average, maybe 1 hour and 15 minutes. So right off the 
bat, we had some issues with assumptions.
    We are still receiving certificates of enrollment. This 
week alone, we received 3,600 certificates of enrollment coming 
from schools who are working through the process and we put 
them into the process of providing those checks, three checks.
    The great thing about a good organization is when you do 
not get the assumptions right, you react and the reaction was 
students needed to be in school. We needed to get checks to 
them. In a week, the VBA put together a plan and we paid a 
number of veterans who were in need of help.
    As I look forward, and to the Ranking Member's questions 
about what could we do differently, of course, we will look 
hard at the assumptions for at how many more people we should 
have for the future.
    But one of the things that has tied up the process is right 
now we have to wait for the certificate of enrollment to come 
from a school before we can make all three payments, a tuition 
payment to the school, a housing payment to the student, and a 
book payment to the student.
    If we can decouple that, and I may need the help of the 
Committee on this, if we can decouple that, I am more than 
willing to pay, as has been suggested, housing and books 
separately in advance and then let the tuition follow the 
normal course at the rate that the colleges and universities 
are comfortable with.
    Barring that, I am prepared to do an emergency exercise 
probably in January for the spring semester and we are capable. 
We have learned a lot and we will be better at it. So we are 
prepared to not have the pinch that we had here in September. 
But, again, we adjusted to the assumptions that did not bear 
out and we learned from it. We will make improvements in the 
future.
    Other things we are doing is we have the phase three 
automated tool coming out in November. I expect that will clear 
up all the backlog that may exist in all of our educational 
programs, not just the Post-9/11 GI Bill, and we will enter the 
spring semester with no backlog.
    Ms. Brown of Florida. Thank you so much and thank you again 
for your leadership.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    Again, we appreciate your service. You are a very talented 
guy and you could be doing lots of different things and yet you 
have chosen to serve veterans.
    I think we can all be very, very proud of the new GI Bill. 
I mean, that is a tremendous thing for our men and women in 
uniform and it is just great, and for our veterans. I think we 
do have some problems. You know, it is not the VA's fault. You 
guys have been working very, very hard to get this done. But 
the bill, the way that we set it up, and, again, you do not 
realize unintended consequences sometimes until you get into 
things, this is a big deal, but I do think the decoupling, you 
know, some of the things that you mentioned, you know, that we 
are pushing on the right track in that regard.
    And certainly I know I am committed. I think Ms. Herseth 
Sandlin and I are committed to whatever it takes and our 
leadership on the Committee to, if we need a legislative fix, 
to get that worked out.
    This is a little thing, but one of the things that I get a 
lot of mail about, and perhaps, you know, VA can help, is there 
is a lot of anxiety right now among veterans that somehow they 
are going to be caught up in the new health care system and be 
folded into that.
    And I think that you know that is not going to happen and 
anything that VA can do in putting out your statements and 
things, I think it would be helpful to reassure veterans that 
the VA system is going to continue. When I am around my Legion 
halls and things like that, there is just real concern among 
our seniors that again somehow that is going to happen.
    The other thing is that, you know, right now I am a guy 
that thinks all of us every day needs to wake up and think what 
are we going to do to create jobs, you know, what are we going 
to do to protect pension plans and things like that. With this 
economy, again really focusing your efforts, and I am not 
saying that we are not doing a good job of doing this, but I do 
think that VA right now really needs to really focus in helping 
to put our veterans back to work.
    These men and women coming back from overseas, it is very, 
very difficult right now. And I would just encourage and ask, 
you know, that that be a real focus so that we do not get 
behind in that regard. It is just very, very tough in the 
economy as you know.
    Secretary Shinseki. Thank you for those comments.
    I share your concerns. All of us are focused on entry into 
the college environment on the front end of the Chapter 33 
Post-9/11 GI Bill.
    I have told the young veteran students I have met with all 
of us are excited about this. I am focused on graduation rates. 
There is no return on this unless you graduate and then we help 
you be positioned in the workforce.
    So it is a broader look for me as I look at this. And so 
much effort has put into making sure we get the front door open 
so we have students in school. And I have sort of deferred the 
second piece and that is looking at the graduation process and 
then jobs after that.
    In the meantime, I do know that college is not necessarily 
a choice for every veteran coming home and we need to give them 
options that allow them to get vocational training that they 
want, administrative training that they need to move them very 
quickly in the workforce and not at the low skill level but at 
an appropriate level given their leadership skills, their 
operational experience, the kinds of decision-making they have 
been doing in uniform for 3 or 4 years. That needs to be part 
of the calculation when we assess their capabilities.
    Mr. Boozman. Thank you, Mr. Secretary.
    The Chairman. Thank you.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    And I want to thank you, Mr. Secretary, for all the work 
that you are doing for our veterans and thanks for coming here 
this morning.
    I have a couple of questions and appreciate your 
willingness to also focus on issues that affect veterans in 
rural areas. My couple of questions are, one, a number of years 
ago, this Committee and Congress established an Office of Rural 
Health to focus on rural veterans' issues. I know that the 
position is open, I believe, now for the Office of Rural 
Health.
    How soon do you intend to fill that position as well as 
what type of individual will you be looking to fill the 
position for the Office of Rural Health?
    The other question I have is, Mr. Moran and I were able to 
pass legislation dealing with four pilot projects nationwide to 
help address some of the issues in rural areas. It is my 
understanding that it has been slow in getting started.
    I wanted to know what implementation problems do you see as 
it relates to the four VISNs' pilot projects moving forward at 
a more rapid pace than what it has in the past.
    And my last question is, you mentioned you met with the 
VISN Directors to talk about some of their needs. One of my 
concerns dealing with VISN Directors is how it might filter 
down in rural areas.
    For instance--I will use Maine as an example--it takes over 
8 or 9 hours to get to the--you know, from one end of Maine to 
Boston. When you look at the VISN office in Boston, they are 
concerned that VISN might not be the same as in Maine when you 
look at the whole issue under the Capital Asset Realignment for 
Enhanced Services (CARES) process where they recommended 
several community-based outpatient clinics (CBOCs).
    The problem that we ran into over the years serving on this 
Committee is that a CBOC's funding comes out of the operating 
budget cost for the VISN. So you might have a VISN Director 
whose funding for that VISN might not be adequate. Therefore, 
they are not going to move more aggressively as they should on 
the CBOCs to really address some of the rural health care 
issues.
    I want to know what you have done to look at how the 
funding for the CBOCs is dealt with as it relates to the VISNs.
    Thank you.
    Secretary Shinseki. Thanks, Mr. Michaud.
    This is an area that I have not quite figured out. I know 
that in our geographical definitions of where the VA sees 
itself located, and I have shared with this Committee urban, 
rural, highly rural, so two-thirds of our definitions have 
rural associated with it and, yet, when I go and look at our 
processes, they are very heavily focused on the large medical 
centers and primarily urban settings.
    And while there is outreach to the rural areas, I am yet to 
be convinced that it is to the point where I can say that a 
rural veteran living in location X gets the same access to 
quality health care as someone in the Bronx. I just cannot say 
that right now.
    Part of this hesitation on my part is to try to figure out 
how the money flows through this process and that is part of 
the reason why I had 21 VISN Directors come in, share with me 
their priorities. And I will say that while rural care came up, 
it was not high enough on the discussion point either on my 
part or theirs and I need to go back and do more work.
    Following those 21 VISN Directors, I have asked for a 
cross-cutting review of a number of programs. Women's program 
is one. Rural health is another. Telemedicine is a third. So 
that I have an appreciation for what you are asking me, is how 
does this fit out there.
    In a progression of delivering health care from medical 
center centric through an outreach effort, through CBOCs, 
through outreach clinics, through mobile clinics that try to 
address the needs of veterans where they live and the longest 
reach for veterans as you describe in a rural area. I do know 
that four VISNs were engaged in this pilot. I was not aware 
that we were lagging in execution. I will make it a point to 
look into this and I am happy to provide you a report on what I 
find regarding them.
    Mr. Michaud. What about the Office of Rural Health?
    Secretary Shinseki. The Office of Rural Health is 
established. In fact, the cross-cutting 3-hour briefing that I 
received was provided to me by the Director of that office. And 
in her presentation, she had VHA present, Members of VBA 
present so that the discussion was indeed cross-cutting across 
VA.
    Mr. Michaud. My question was, it is my understanding that 
that position is vacant or will be coming vacant very quickly 
and what type of--how quickly will you be able to fill that 
position and what type of individual will you be looking----
    Secretary Shinseki. It may be coming vacant. That I need to 
verify. But I will assure you that we will fill that 
expeditiously if it is, in fact, being vacated.
    [The VA subsequently provided the following information:]

    Question 1: Is there, or will there be, a vacancy for the 
Director of the Office of Rural Health? What will VA look for 
in a person to lead that office?

    Response: Yes, there is a vacancy for the Director of the 
Office of Rural Health effective November 7, 2009, and 
recruitment efforts have already begun. The Department of 
Veterans Affairs (VA) is looking for a candidate with the 
following knowledge, skills and abilities:

    1. LKnowledge of the issues facing rural Veterans in 
accessing VA health care;
    2. LDemonstrated skills in administering a complex program 
of existing services, and the ability to develop new services 
in response to Veterans' needs;
    3. LExperience leading a program in an organization as 
complex as VA, along with the ability to work effectively with 
multiple internal and external stakeholders;
    4. LDemonstrated ability to keep abreast of major changes 
in trends or advances in rural health care and to assess the 
impact of proposed changes, legislative or programmatic, on the 
VA health care system;
    5. LKnowledge of the mission, organization, program, 
policies, and procedures used in the VA health care system and 
related Federal (Centers for Medicaid and Medicare, Department 
of Defense, Indian Health Service) and private sector health 
systems would be desirable; and
    6. LA clinical background to understand the health needs of 
Veterans and the health care delivery system would be highly 
desirable.

    Question 2: Please provide a status update on the rural 
health pilot project required by section 403 of Public Law 110-
387.

    Response: VA continues to work through complex issues 
associated with implementing the pilot programs, such as 
transferring medical information and ensuring Veterans receive 
quality and coordinated health care. There are two issues that 
have impacted timely implementation of the pilot program: 
first, the definition of highly rural areas, and second, the 
statute's provision that VA develop regulations defining 
``hardship.'' The first issue developed because the legislation 
defines highly rural areas differently than VA does, so our 
analysts had to reconfigure data systems to determine what 
areas are highly rural based upon distance from VA medical 
facilities, as the statute requires, rather than drive time, as 
VA has historically done. VA notes Congress is considering 
legislation that would resolve these issues, but in the mean 
time, VA is developing an implementation plan for the statute 
as written.
    To date, VA has:

    <bullet> LDetermined which VISNs meet the statute criteria 
(VISN 1, 6, 15, 18, and 19);
    <bullet> LEstablished an interdisciplinary work group to 
examine the cross-cutting issues associated with implementing 
these pilot programs;
    <bullet> LInvestigated acquisition, clinical, 
communication, evaluation and oversight issues, among others;
    <bullet> LCommunicated closely with appropriate 
stakeholders, including staff from the House and Senate 
Veterans' Affairs and Appropriations Committees and staff from 
Congressman Moran's and Congressman Perriello's offices;
    <bullet> LAnalyzed and addressed complex issues associated 
with reconfiguring data systems to evaluate Veterans' 
eligibility for participation in the pilot program, developing 
a participation form for Veterans and drafting a potential 
definition for the statute's hardship provision; and
    <bullet> LDeveloped an implementation plan currently 
undergoing internal review

    In the coming months, VA will assess which Veterans will be 
potentially eligible to participate and finish coordinating the 
implementation plan and begin addressing pre-implementation 
items. VA will keep the Committee informed of further progress.

    Mr. Michaud. Thank you.
    The Chairman. Thank you, Mr. Michaud.
    I would just like to point out, Mr. Secretary, that you are 
the first cabinet Secretary in the history of this republic to 
say that you have not figured that out yet. I thank you for 
your candor.
    Mr. Roe.
    Mr. Roe. Thank you, Mr. Chairman.
    First of all, the GI Bill, I am very appreciative because I 
was able to use the GI Bill and I remember the $300 a month 
that I got was very helpful at that point in time as a student. 
And I am very grateful to the VA for that.
    And I think that these problems in the GI Bills we talked 
about last week in your office are manageable problems. I think 
these are fixable and it is a learning curve. There is no 
question about that. And you have gone to some extraordinary 
circumstances to try to solve this problem.
    And you are absolutely correct. What will happen is this 
will create the next group of leaders in our country. There is 
no question that will happen.
    Just a couple of things. On the rural, one of the problems 
with rural medicine or the CBOCs, they are not glamorous. We, 
as doctors, like to work in big hospitals and we call them the 
mother ship where everything, all the equipment and all that 
is. But the real care goes out in these outpatient clinics. 
That is where you can prevent the use and it is a very 
inexpensive way to provide care and preventive health care. So 
I think we ought to encourage that. But what Mike said is 
something that we ought to really work at big time.
    One of the questions I have, and we talked about it the 
other day somewhat, is homelessness among veterans. It is a 
real tragedy in America that we have the richest Nation in the 
world and we have veterans who served this Nation and who are 
homeless. So just a couple of comments from you on that.
    Secretary Shinseki. Let me just touch the comments on rural 
health. I agree with you. And I would say that this a concept 
of delivery of health care that probably began about 10 years 
ago, maybe a little longer in VA, and that was the movement 
from the medical centers to provide delivered health care where 
80, 90 percent of your day-to-day requirements are being taken 
care of in CBOCs and then outreach clinics and so forth.
    What that has done for us is to provide great emphasis on 
primary care practitioners and allowed us to get into the 
prevention health care model that veterans only go to the 
mother ship, as you call it, when they have to for acute care 
or tertiary care.
    And for our own purposes, when they go there, they are 
exposed to lots of things we would rather they not be exposed 
to. So taking care of business locally has other benefits as 
well.
    The next step, I think, in this delivered health care for 
the rural environment and maybe even the chronically ill 
patient is our investment in telehealth, telemedicine. It will 
allow us to provide that quality of care and contact with a 
health care professional, specialist in a way that will provide 
better day-to-day monitoring rather than waiting for someone to 
feel badly enough to come in for help, that the chronically ill 
can have their vital signs monitored day to day.
    On the issue of homelessness, if I can move to that, I 
think I have mentioned that 131,000 veterans is the estimate 
who live on the streets of our country, sleep on the streets of 
our country every night. VA is committed to taking 131,000 
veterans off of our streets in the next 5 years, a big task 
that we have taken on, but not doing it lightly, doing it with 
the intent to address all the other things, the missed 
opportunities that result in homelessness, jobs, education, 
mental health issues, dealing with depression, substance abuse, 
providing safe housing for veterans, getting them off the 
streets.
    It is more than just the issue of getting 131,000 people 
off the streets. That is sort of a physical challenge. If we 
are going to do this and sustain the gains we intend, we have 
to address all the other issues here and do better at job 
counseling. And we are working with Secretary Solis and the 
folks at the Department of Labor, working with Education, 
working with small business, and trying to raise the 
competitiveness of veterans either as workers or as owners of 
small businesses.
    In the VA, we have a veterans first contracting process and 
I am happy to report that we have done quite well in getting 
veterans competitive in that environment. The reason it is 
important for us is that our track record shows that veterans 
hire veterans. They know what they are getting. They are 
comfortable. They are not unknown quantities. So in a sort of 
larger discussion here stemming from homelessness to our 
priorities for giving veterans and veteran-owned businesses the 
opportunity to compete, I think all of it is in the discussion.
    Mr. Roe. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, Ranking Member Buyer. I 
would like to associate myself with both of your remarks and 
those of many other Members here in thanking and congratulating 
you on your work so far and at the same time not ending the 
daunting task you still have before you.
    I was impressed when we met last week and you said that the 
message you are trying to communicate down through the 290,000 
some people who work at the VA can be summed up as the answer 
is yes when the veteran is sitting across the desk. When a 
veteran comes in for help, asking for a solution to their 
problem, the answer is yes. Now let us figure out how to define 
the question and how to get there.
    And that is so much appreciated. I have repeated that a 
couple times to veterans in my district and they are cheering 
for you.
    We had, last week in my district, a job fair at the Castle 
Point veterans complex that was jammed packed and featured 
private sector and public sector folks who were there to talk 
about what jobs were available, who was hiring, what training 
was being offered. And there were many veterans taking 
advantage of it. I hope that is something that is, and I assume 
that is, something that is going on across the country and not 
just in our district.
    The clinic in Goshen, by the way, the outpatient clinic, is 
new and running like clock work. The Director of Hudson Valley 
Healthcare gave me a brief tour. Every examining room was full. 
The ophthalmologist was seeing somebody. The dermatologist was 
seeing somebody. The general practitioner was seeing somebody. 
The cardiologist was seeing somebody. There were two people in 
the waiting room. And he said that their goal is not to have 
anyone wait longer than 5 minutes.
    And as Dr. Roe was saying, this is where you can really do, 
especially in these, not necessarily--of course, you need the 
big hospitals and certain things only can be done at the large 
hospitals. But if our more rural outpatient clinics can be run 
as this one is run, then I think VA is an example of how, as 
the Director himself said, how government actually can run 
health care efficiently.
    I have a couple of questions specifically. As you know, we 
passed a bill last year, the ``Veterans Benefits Claims 
Modernization Act,'' which required VA to submit in reports 
examining the effectiveness of various practices of the VA, in 
particular the work credit system, fully developed claims, 
hiring medical professionals at the VBA, and an evaluation of 
work training programs. And I was wondering if you could tell 
us what is the status of those reports.
    Secretary Shinseki. I am not quite sure the status of the 
report, but let me just provide you a sense for what we are 
looking at in terms of claims processing. I think this is the 
focus of the report.
    We have three initiatives underway right now, one in Little 
Rock, which endeavors to relook our entire business process and 
make sure we have that right. We have another pilot underway in 
Providence that attempts to take information technology and 
apply it to our business processes to see what kind of benefit 
we get out of that. And in March of next year, we are standing 
up a virtual Regional Office that is going to be entirely IT 
focused in Baltimore.
    And between these three projects, we hope to get the kind 
of momentum in dealing with the backlog and claims processing 
that to this point have been basically incremental.
    At a time when we close out 85,000 claims and get in 89,000 
new ones, it suggests that this is not just a numbers game. 
This is a bigger set of challenges.
    We have also opened up innovation discussions with the 
White House, with VBA, and OI&T and turned to the workers in 
VBA, the folks that do the claims processing, and asked them 
for good ideas on how to reengineer this process.
    We right now, in 10 days, have 3,200 recommendations and a 
quick review, that is 3,200 good ones of what came in. So we 
are putting all of this together and we hope to have some 
solutions for the challenges we have been struggling with here, 
at least for the 9 months I have been here. And we will try to 
put this in some form to meet the reporting requirements that 
you have outlined.
    Mr. Hall. Thank you, Mr. Secretary. I have other questions 
I will submit in writing.
    And thank you, Mr. Chairman.
    [No questions were submitted.]
    The Chairman. Thank you, Mr. Hall.
    Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman.
    And, Mr. Secretary, as always, thank you for your service 
and your continued service and to your family for having you 
here. I know how much time you put in.
    A couple special thank yous and to Chairman Filner on this. 
The ruling on Parkinson's this week was wonderful. And I know 
Chairman Filner was out in my district, in Rochester, Minnesota 
when the Grahams came to him and a lot of our folks out there 
are thankful for that.
    And I think the process worked right there. We heard from 
veterans. We waited for the data. We let it be a data-driven, 
scientific process. We came to a conclusion and we did not 
waste time. We made a decision. So I thank you for that.
    I would also like to say, as Dr. Roe said, the GI Bill for 
my father and myself were the reasons we had college degrees 
and moved us through the middle class. And so having that 
expanded is something that all of us take very, very 
personally.
    And I would have to say I appreciate your references, Mr. 
Secretary, on assumptions and being on a range. As a fellow red 
leg, you and I both know that firing that howitzer is not the 
most important thing. Hitting the target is the most important 
thing.
    And I will tell just a quick story. We, as we started to 
hear a little bit of the issues on the GI Bill, got a hold of 
our VBA folks in Minneapolis, sent them down a team of three to 
Winona State University last Friday, had all 34 of our veterans 
down there, 17 had been paid, the other 17 knew exactly where 
the status of their claim was and when it would be taken care 
of. And all 34 left with a great appreciation. And those VBA 
folks were there to say yes and to figure it out. So you are 
adjusting just well on this one and I think that is what is 
really critical. So I thank you for that.
    Again, I sure do not want to sound like the broken record, 
but I am convinced and I think you maybe share this concern, 
Mr. Secretary, of getting at the systemic problems, whether it 
is claims backlogs, whether it is jobs as we heard Mr. Boozman 
talk about. I am still convinced we can do a better job of 
seamless transition, a better job of transitioning our warriors 
to veterans.
    And I know the first step is the virtual lifetime 
electronic record (LVER) and we are getting there. I do believe 
it is the first step. I think there is an ability here to be 
more collaborative as you talked about in Chicago. We can 
squeeze efficiencies out of the system like we ask families and 
businesses. We can deliver services better at less cost by not 
being duplicative.
    So I just have a couple of questions on this. The Offices 
of Seamless Transition in DoD and VA, what is the status of 
those, Mr. Secretary?
    Secretary Shinseki. The Interagency Program Office, the 
IPO, my understanding is that we have a Director appointed. VA 
is to provide the Deputy and we have a candidate that is in the 
process of being interviewed right now. And I am hopeful that 
very shortly we will have a Deputy Director for that position 
as well.
    In fact, our position was filled by an acting individual 
who was tremendous, did a great job in that position, fully 
acceptable to everyone except there was a certain rank required 
for that position, which this individual did not have and 
unfortunately we could not nominate him. We would have been 
very happy to nominate that individual.
    Barring that, we have a candidate that is acceptable to 
both DoD and VA and we hope to have that person in place 
shortly.
    Mr. Walz. Mr. Secretary, I am appreciative of that, of 
where we are going. I spoke with Secretary Gates last week out 
at the Pentagon on this and he is, of course, incredibly 
supportive of understanding that as we use our warriors, we are 
going to have veterans and it makes sense to seamlessly get 
them there.
    Are we doing a good enough job here in Congress of trying 
to meld this together, of trying to actually get to that? And 
do you think it would be helpful if we did something 
unprecedented and had you and Secretary Gates setting side by 
side to talk about this? Is it important enough to warrant 
that?
    Secretary Shinseki. Mr. Walz, we would be more than happy. 
I think I am comfortable speaking for Secretary Gates as well. 
I think we would be happy to respond to the request.
    But on the other hand, I also know that a tremendous amount 
of work on his part and on my part has gone into standing up 
and getting real progress here.
    This all began when he and I were standing in line on the 
21st of January, each of us waiting to be sworn in, and just a 
personal discussion about we need to do better here, had four 
and five meetings between us, and to a point now where in 
April, the President acknowledged that this was a major project 
and he charged both of us to develop a virtual lifetime 
electronic record.
    And we have some major products out there. Out in San 
Diego, we have a VA hospital and a civilian entity now 
exchanging data electronically, Kaiser Permanente and a VA 
hospital out there. So we have with this effort to create VLER 
made some real progress in 9 months. I expect that there will 
be more. But, again, we are happy to provide the reports in 
whichever format.
    Mr. Walz. I absolutely agree. And, Mr. Secretary, and I 
recognize and I think many do and I think the VSOs recognize 
it, I think, in fact, you have made so much progress and you 
are being so up front about leading this, there is a sense of, 
this might finally happen after all these decades.
    So if there is a kind of a sense of urgency or kind of a 
sense of that we are wanting more, there is actually a sense of 
optimism in the room that this is a real big leap forward. So I 
appreciate that and all the work you have done on it.
    Secretary Shinseki. We have to do this. Sir, we have to do 
this. You know, on the one hand, we talk about the backlog 
issue. I mean, that is what happens if we do not put this in 
place.
    Mr. Walz. I agree.
    Secretary Shinseki. Youngsters who do not get benefits on 
time or do not get processed on time, this is the result of our 
not doing this. We have got to do this.
    Mr. Walz. Well, I appreciate your focus on this.
    I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Walz.
    Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you.
    Mr. Secretary, thank you for joining us.
    I appreciate the gentleman from Maine's comments about and 
his questions about rural aspects of veterans' care.
    I wanted to focus on a point in your testimony about 
Priority 8 veterans, Mr. Secretary. You indicate in your 
testimony that a major initiative is to expand--the President 
has made a decision to relax the thresholds that were 
established in 2003 and you indicate in your testimony that up 
to a half a million new Priority 8 enrollees will be added to 
the VA system, health care system over the next 4 years.
    It is my understanding that all that has happened to date 
is that there has been a ten percent change or a change of 10 
percent in the threshold and that we have now enrolled another 
20,000 Priority--what were formerly Priority 8 veterans. Twenty 
thousand and half a million is a significant difference.
    What is the Department's plan over the next 4 years and if 
we enroll a half a million--how many veterans are in Priority 8 
today that are not accessing health care? If we enroll another 
half a million, is that all the Priority 8 veterans or what 
remains of that group?
    Secretary Shinseki. You know, one of the questions I have 
out is what is the size of the Priority Group 8 population. And 
there are some estimates. I do not have a good number for you 
today. But the 500,000 target by 2014 was seen as a major 
effort to bring Priority Group 8s into the inventory.
    You are correct. We opened registration on 15 June and to 
this point, 20,000 have applied. We set an estimate of 266,000 
in the first year out through 2010. So we are early in that 
process. Some of this may be outreach and informing people, so 
we have doubled up our effort to make sure people understand 
that this is available to them.
    I expect the ramp will go up. But at this point, 20,000, 
you know, projected to the end of 2010 does not put us at 
266.000. So I share your concerns.
    But I would also tell you I have asked folks to go and take 
a look at all the other categories, 5 and 7 primarily. Priority 
Group 5 is up 89 percent. Prior Group 7 is up 149 percent. And 
what I am trying to sort of figure out is whether these were 
potential Priority Group 8 folks who met a qualification 
elsewhere or whether these are truly 5 and 7 category veterans 
who because of the economic pressure have decided to come to 
us.
    There has been an increase in our ranks. That is clear. 
Priority Group 8s has not got off to the start we thought we 
might see, but it is still early in the process, the first 
month of the year. This could change over the course of the 
next 9 months.
    Mr. Moran. Mr. Secretary, what is the change in criteria 
that allows what you estimated to be 260 some thousand to be 
able to enroll in the current time frame and then what changes 
in criteria do you anticipate making that then would enable the 
total of a half a million to be enrolled within the next 4 
years? What are the incremental steps that the Department is 
taking?
    Secretary Shinseki. Well, the criteria has had no real 
change. That is the criteria that goes along with Priority 
Group 8, which is primarily economically based, qualification 
in terms of their----
    Mr. Moran. But you must be loosening that criteria in order 
to get more people eligible. And my question is, have you 
loosened the criteria and in what ways do you anticipate less 
restrictions, loosening the criteria to get to the full half a 
million?
    Secretary Shinseki. Well, I can tell you that we have not 
loosened the criteria. The criteria was always there. I mean, 
it is defined in our Priority Group 8 descriptions, veterans 
eligible for enrollment noncompensable, veterans eligible for 
enrollment nonservice-connected. So those do not change.
    But it has to do with the economic conditions. At the time 
they were suspended, they were just taken out of consideration. 
Now that they are put back in, these criteria are not changed. 
They are the same criteria.
    Mr. Moran. Well, what causes then people to be eligible 
today that were not eligible before? Their income? Maybe that 
is the answer. Their income went down just due to economic 
conditions, so it is no policy change at the Department? It is 
just difficult economic times?
    Secretary Shinseki. Veterans with income and/or net worth 
above the VA national income thresholds and the VA national 
geographic income thresholds who agree to pay a co-pay. That is 
the Priority Group 8 category.
    And then within that category, veterans eligible for 
enrollment noncompensable, zero service-connected, and then 
various subcategories, then veterans eligible for enrollment 
nonservice-connected, veterans not eligible for enrollment, 
veterans not meeting the criteria above. So that is sort of the 
three criteria that describe the Priority Group 8. But, again, 
it goes back to income and/or net worth at or above national 
income.
    Mr. Moran. Thank you, Mr. Secretary. I will pursue this a 
little further with you or your Department.
    Secretary Shinseki. I am happy to do that.
    [The VA subsequently provided the following information:]

    In 2009, VA opened enrollment to Priority 8 Veterans whose 
incomes exceed last year's geographic and VA means test 
thresholds by no more than 10 percent. Our most recent estimate 
is that 193,000 more Veterans will enroll for care by the end 
of 2010 due to this policy change.
    In 2011, VA will further expand health care eligibility for 
Priority 8 Veterans to those whose incomes exceed the 
geographic and VA means test thresholds by no more than 15 
percent compared to the levels in effect prior to expanding 
enrollment in 2009. This additional expansion of eligibility 
for care will result in 99,000 more enrollees in 2011 alone, 
bringing the total number of new enrollees from 2009 to the end 
of 2011 to 292,000.

    Mr. Moran. I appreciate your service and appreciate your 
attendance today.
    The Chairman. Thank you, Mr. Moran.
    Mr. Rodriguez.
    Mr. Rodriguez. Mr. Secretary, let me thank you very much 
for your hard work. I know in the short period of time that you 
have been there, you have had a chance to run across the 
country and visit, so I want to personally thank you. And also, 
in all honesty, I also want to thank you for serving our 
country the way you have and continue to serve as Secretary of 
the VA. So I personally want to thank you for those efforts and 
I feel real comfortable that you are serious about getting 
things done and having to deal with the bureaucracy that we 
also have to deal with.
    I know you have made some comments as it deals with rural 
veterans and ask you to continue, encourage you to move in that 
direction in seeing how we can best respond to those. I know 
that there is a pilot program that created four centers and 
wanted maybe later on for you to comment as to where we are at 
on that particular piece of legislation that created those 
pilot programs in trying to make something happen and whether 
we need mobile units to go out there.
    I have 20 counties, 800 and something miles through the 
border. I make those counties quarterly and still come up here 
during most of the week. And so I would hope that maybe through 
some kind of mobile units or other responses, and I know that 
there are some efforts out there, but we need to continue to 
work on that.
    I wanted to, and you might want to comment about that, but 
I want to comment about a couple of things. One, the suicide 
and congratulate you what has happened there. But I am hoping 
that as we not only talk to them over the phone that we go 
beyond that because if we have 300 and something calls a day 
that we actually maybe have caseworkers that reach out to those 
individuals, whether they might be suicidal or homicidal, and 
that we see what we might be able to do throughout the country. 
If we can prevent one suicide, I think it would be--I know it 
has been successful because I am sure it has done that already 
or at least one homicide. So I would ask you to comment about 
that.
    But before I finish, I also want to move, because we deal 
with some 7 or 8 million veterans and there are 23 million out 
there, most of the focus has been by the veterans 
organizations, and for good reason, on helping the veteran. And 
the veterans organization focus has been on that. But as you 
well know and as you go through there, we have some great 
people out there that are ready to do other things.
    In the U.S. Department of Homeland Security (DHS), in 
Federal Emergency Management Agency, we have a sector there 
that funds programs for volunteerism and who better than during 
a natural disaster or a manmade disaster having veterans 
participating in helping out when a tornado hits, when there 
are floods.
    And I think the VA, in conjunction with Homeland Security, 
could come up with some unique programs where we have veterans 
ready and they have been trained, they know how to act during 
those disasters and how to best respond, and we could maybe go 
a little bit beyond that and do some things there where we 
could get our veterans engaged in responding. Fires, I mean, we 
could easily come up with units that are well-trained to go out 
in the forest fires and other types of examples.
    I also wanted not only that, but also with the DoD since 
you came from that, they spend millions of dollars in 
recruitment. Who better to recruit than the VA? And the DoD, I 
know, expends a lot of resources on advertisement. They could 
be engaged with reaching out to our veterans in helping in 
recruitment as well as the Homeland Security.
    And I know that there are other agencies out there like the 
Criminal Justice System, that are out there reaching out to 
some of our veterans, especially those Vietnam veterans that 
find themselves incarcerated because, for example, when they 
try to self-medicate since we were not doing what we should 
have been doing and now I know we are sincerely working at 
trying to meet those needs.
    I would ask you to see if you might comment on those 
comments that I have made.
    Secretary Shinseki. Mr. Rodriguez, the mobile units are a 
concern of mine also. I know that as much outreach as we try to 
provide, there are still those very highly rural areas that we 
do not quite get what is needed. And the mobile units, clinics 
become crucial in being able to reach veterans wherever they 
live. So I have paid attention to this. I will look at it again 
to make sure.
    And I think you are talking about your own personal 
experience there in the San Antonio, down through the valley, 
that part of the country. I will look at that to see what kind 
of coverage we have.
    On suicides, I mentioned that this National Suicide 
Hotline, there have been 5,200 potential suicides in progress 
that were intervened and which literally people in the midst of 
crisis, authorities walked in and were able to help them. So 
the reason I think we are successful at this when someone calls 
the National Suicide Hotline, the person who answers it is a 
mental health professional. It is not just someone answering 
the phone. It is a mental health professional who is sensitive 
to, is listening for cues, recognizes some danger signals, and 
some of these interventions have been in progress.
    So we appreciate your concern about caseworkers and having 
professionals involved in this process. And we are expanding 
the numbers that we have in our inventory to accomplish that.
    I had not thought about volunteerism with DHS, but I will 
go take a look at that. You know, in the VA, we have a 
tradition of volunteerism. Many of our veterans come and donate 
their time in our hospitals and in some cases even in our 
regional offices to help make the best case for and help take 
the best care of veterans who come for services and benefits.
    But in terms of responding to disaster relief, I will 
consult with DHS there and see what is possible.
    You mentioned Vietnam veterans, incarcerated veterans. I 
think you know this. Every year, 40,000 veterans are released 
from our prisons. This is part and parcel of this larger 
discussion about homelessness. Some of them are there for being 
on substances and petty crimes that lead to incarceration.
    If we are going to address the whole issue, it is 
homelessness and all the things I talked about. It is jobs. It 
is education. It is mental health, depression, substance abuse, 
and also dealing with our incarcerated veterans and providing 
them an opportunity when they leave to have something to do, 
skills and be on a track that is going to keep them from taking 
a turnstile back to prison.
    And so this is also part of our discussion as we deal with 
how to take better care of our veterans. It is a very broad 
charter, very broad discussion, not just our hospitals, but it 
is caring for the veterans wherever they live and in whatever 
condition they find themselves today based on their histories.
    Mr. Rodriguez. Thank you, Mr. Secretary.
    And I know that the VA has been about providing a service, 
but I know that a lot of our veterans also continue to serve 
our country. And these would be good programs, I think, that 
they are, you know, well experienced and who best to be out 
there.
    So thank you.
    The Chairman. Thank you.
    Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today and 
particularly for that good exchange we had the other day up in 
your place.
    But my question is, in your testimony, you highlight and 
you evolve a VA model of health care that would expand VA's 
partnership with local teaching hospitals for inpatient care. 
And I certainly applaud this vision.
    Public Law 109-461 authorized VA to enter into an agreement 
for the planning and design of a collocation, located joint use 
medical facility in Charleston, South Carolina, with the 
Medical University of South Carolina. To date, VA has not 
appropriated any funds to carry out the project.
    And could you give us an update on the status of this 
particular project.
    Secretary Shinseki. Mr. Brown, I should have been smart 
enough to have some detailed notes on this. I promised you that 
I would give you an update. If I may, I would like to do that 
for the record.
    Mr. Brown of South Carolina. Okay. Thank you very much.
    This is something we have been working on for a good number 
of years and we feel like it is a good, workable solution to 
bring a higher quality of health care to our veterans. And so 
we were hoping, you know, that we could proceed with this model 
since we had some authorization back about, I guess, two 
sessions ago.
    And we feel like because of the, I guess, construction 
going on now in that area, this would be the ideal time to be 
able to jointly design something that would be more efficient 
for the VA patients.
    Secretary Shinseki. As I indicated to you when we discussed 
it, I owe you an answer here and I am doing some research now. 
I just do not have the--I am not satisfied that I have all the 
information. I would like to provide that to you.
    [The VA subsequently provided the following information:]

    The Charleston VA Medical Center and the Medical University 
of South Carolina have worked together to identify potential 
collaborative and sharing opportunities over the last several 
months. Areas of mutual interest include high cost equipment, 
parking, road issues, shared utilities, and administrative and 
clinical space. Collaborative efforts with various work groups 
have concluded that it is not feasible to pursue a co-located 
joint medical facility. This conclusion reflects our continued 
efforts through the Collaborative Opportunities Steering Group 
and the Collaborative Opportunities Planning Group, both of 
which have reviewed potential sharing and collaboration efforts 
between the two facilities. These groups have concluded it is 
not feasible to pursue a co-located joint medical facility. A 
replacement medical facility for Charleston is not currently a 
VA major construction priority.

    Mr. Brown of South Carolina. Well, thank you very much. 
Thank you for your service too.
    The Chairman. Thank you, Mr. Brown.
    Mr. Donnelly.
    Mr. Donnelly. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you so much for your service from 
the veterans of northern Indiana. I have spoken to them and 
they want you to know how grateful they are for the hard work 
you are putting in and for the changes that you are making.
    In regards to traumatic brain injury, and you were kind 
enough to spend some time at your office with me on this issue, 
in the transition that occurs from when these soldiers are 
active to being part of the veterans system, we have 
approximately four Centers of Excellence on TBI treatment 
throughout the country.
    But if a veteran comes out and they are some distance from 
one of those four centers, which are located throughout the 
country, what is your perception of where this is going to go 
in terms of providing treatment for that veteran who may be 
hundreds of miles from one of those facilities but needs care 
on a more regular basis or needs to have some medical 
assistance?
    Secretary Shinseki. Well, I would just point out that 
though we focus on the four and soon to be five polytrauma 
centers for care of our TBI, that is really just a starting 
point. There is a network of other medical facilities that take 
over once that initial diagnosis and treatment has started.
    As the veteran migrates from that polytrauma center closer 
to home, we have second and third tier TBI capable polytrauma 
support entities in the network that looks after the continuing 
care, continuity of care that those veterans need and deserve.
    As they get closer to their final destination, home, 
wherever that is, the intent is to have something available to 
them close by. So that is the reason for that maintenance of 
treatment at second and third tier facilities. They are not 
polytrauma centers, but they do not need to be at this point if 
treatment has been successful.
    But it is just more than four polytrauma centers and it is 
a network of care that because of our electronic health 
records, there is great sharing of information amongst the 
treatment facilities so that veterans are, in fact, visible as 
they move through this process.
    I was looking for some data here. As of August of 2009, we 
have conducted TBI screening of veterans coming back from Iraq 
and Afghanistan. We do not get all the veterans, but the ones 
who enroll with us, we have screened over 330,000 veterans. 
Sixty-two thousand have screened positive for the initial 
evidence of some form of mild TBI or otherwise requiring a 
follow-up.
    As I say, 62,000 of them screened positive and consented to 
a follow-up. Forty-three thousand have completed that follow-up 
evaluation, so we have got some yet to be completed. And of 
that, 22,000 we have confirmed as having a diagnosis of TBI. 
Roughly 7 percent of the population we started with.
    So once we have them, there is a registry. We track them. 
And so even though we think they are okay for now, if there is 
some degradation in their condition, we have a history here 
that we can look back to.
    Mr. Donnelly. Do you receive any type of registries from 
the DoD of soldiers who are coming out who have had, for 
instance, an improvised explosive device (IED) incident where 
they have been in a vehicle or been very, very close to an IED 
explosion so that you know even though TBI can strike others, 
here are folks who are very likely to be in that category?
    Secretary Shinseki. I know we get some information. I do 
not know if it is complete. Clearly for the serious incidents 
where you have some evidence of physical injury and then 
hospitalization in a DoD facility before they transition to us, 
very clearly we have terrific records.
    But as we know, when we talk about the mild TBI, there are 
folks who are treated locally and remain on operations. We are 
not as good at that. And this is part of the reason that the 
virtual electronic record process that we are trying to create 
between DoD and VA is so very important, so that all of this is 
captured, whatever that unit was doing, wherever this 
individual was located is part of his personnel record. You 
know, our intent is to have that so that we get to what you are 
describing and that is that seamless reporting.
    Mr. Donnelly. And, finally, I just want to thank you and 
your staff for your efforts in regards to the South Bend Health 
Center, for moving that along, and for keeping it on schedule. 
It is an extraordinary positive for our area and also is not 
going to cost any additional money to the VA. So we want to 
thank you for your efforts in that.
    Secretary Shinseki. Thank you, sir.
    Mr. Donnelly. Thank you, Mr. Chairman. Mr. Chairman, I 
yield back.
    The Chairman. Thank you.
    Mrs. Halvorson.
    Mrs. Halvorson. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here. What a 
pleasure and thank you for all your help.
    And, you know, out of all my advisory Committees, my 
Veterans Advisory Committee is the busiest. And, you know, I 
appreciate all the help that you have done and all the things 
that they have brought to you.
    But we have spoken about this before, but I have a hospital 
in my district, Silver Cross Hospital, and they are vacating 
their emergency room because they have outgrown it. And the 
community and the surrounding area would like to convert it to 
a VA medical facility because the lease on their current CBOC 
facility is not only up, but it is also way too small. They 
have grown out of it.
    And you and your staff are familiar with it and I know I 
had the Chairman out. In August, he saw it. And I appreciate 
the guidance that you have given on it. It is not only a 
beautiful facility, but it is really already state-of-the-art. 
It will be empty soon. And even Chairman Filner had bigger 
ideas than I even did for it because I know that one of your 
big issues are eliminating homelessness for the veterans 
community.
    But as you mentioned, you have got a lot of ideas, but 
Silver Cross also presents a lot of opportunities in that the 
facility can be used for a lot of the other programs that you 
talk about. And I also bring Silver Cross in a larger context 
that I believe that the VA should have a long-term perspective 
when presented with unique opportunities like this.
    So when there is a smart opportunity in front of us that 
fits our needs like this facility, I think that we need to 
continue to talk about the need of the VA to be agile enough to 
be able to seize on opportunities like this. So we just have to 
remember we cannot allow bureaucracy to get in the way of great 
opportunities.
    One of the other things I want to talk about before you 
comment on Silver Cross is the backlogs. Now, I really commend 
you for wanting to make this another one of your top priorities 
and I am really happy to hear that in July, there was a record 
92,000 claims that were closed.
    However, I hate to say this, but I look at that number with 
a very skeptical eye because we have heard of these cases time 
and time again, that I hear it is so much easier just to deny a 
claim than to go through and properly fix it in the first 
place.
    And I know that there are so many better ways to just go 
through, fix it properly the first time instead of denying it 
and then having to come back after someone says that they are 
going to appeal.
    So we have got to do something about the culture. We have 
got to put somebody's name to a claim, not just a number 
because I think that we need to address these veterans as 
people and not numbers. And I am a military family. You know, 
my father is a veteran, my husband, and my son, so we have got 
to really do something about that.
    And then again, I just want to talk a little bit about the 
advanced appropriation and how much I appreciate that we are 
going to be doing something so that people know a year in 
advance.
    So with that, if you want to comment first of all on my big 
pet project, the Silver Cross Hospital, and then anything on 
the backlogs.
    Secretary Shinseki. May I start with the backlog?
    Mrs. Halvorson. You sure can. You are the Secretary.
    Secretary Shinseki. It may be easier. You know, we are all 
referencing Mr. Hall's comments. It is culture. And I am asking 
that we and my entire organization, the workforce, take on 
advocacy for veterans.
    That may just sound like a word, but what I mean by 
advocacy is when Shinseki walks in and says I would like to put 
a claim in, my intent is to help him put together the very best 
claim that will pass through the system the first time with a 
very high probability of success. And that takes a little 
different relationship.
    Whatever is there right now is what we are addressing. And 
this change in culture, change in attitude, it is going to take 
a little bit of time to get all the way down to the lowest 
level, but we will get there. Any good organization is able to 
do this and this is a good organization. I have got the right 
leaders in place. We are beginning that process. And we will 
change the culture. I assure you of that.
    You bring up a good point. A number of these claims, 
although less than I expect, are reopened claims. And so I take 
that this has to do with the level of trust and I am 
responsible for improving trust between veterans and this 
organization called the Department of Veterans Affairs. And I 
take that on and I am working on it. I will continue to work on 
it.
    Once we get better processing standards, we will be able to 
demonstrate that kind of trust more clearly. Right now it is 
not the best of situations, but even there, we have put people 
to work in trying to facilitate and to be more productive 
without the easy outs, but be more productive on behalf of 
veterans.
    On Silver Cross, I think we started down the path thinking 
there was going to be one kind of arrangement. I think it was 
we thought it was going to be a donated cost-free facility and 
when that changed, we have had to go back and regroup. And we 
are doing that. I hope to have some better answer on exactly 
what the timeline is here for a decision. I am happy to come 
and provide that to you.
    Mrs. Halvorson. Great.
    Secretary Shinseki. I regret that we had to double back on 
this decision. But be that as it may, we will follow through 
and I am happy to come and report out.
    [The VA subsequently provided the following information:]

    The Department of Veterans Affairs continues to explore 
opportunities for use of the Silver Cross Hospital in Joliet, 
Illinois. The Edward Hines, Jr. VA Hospital is developing plans 
for the relocation of the Joliet CBOC that would allow VA to 
provide expanded outpatient services. VA officials from both 
Veterans Integrated Service Network (VISN) 12 and the Hines 
facility have met with representatives from the Silver Cross 
Healthy Community Commission, and local congressional Members. 
During these discussions and a tour of the emergency department 
of the existing Silver Cross Hospital, the parties determined 
that the building (approximately 60,000 square feet) could be 
re-purposed for expanded outpatient services.
    However, it appears that the terms of the hospital-issued 
bonds place restrictions on the donation of any property and 
limit the Hospital's ability to transfer it to only 501(c)(3) 
non-profit entities, a designation for which VA does not 
qualify. VA's General Counsel continues to research alternative 
arrangements that may honor the contractual limitations while 
still offering Veterans an opportunity for additional services. 
VA has begun exploring options to purchase the property in the 
event the donation is not feasible. Because this work 
continues, VA is not able to provide a timeline concerning when 
a decision will be made.

    Mrs. Halvorson. Thank you.
    I yield back.
    The Chairman. Thank you, Ms. Halvorson.
    Mr. Snyder.
    Mr. Snyder. Thank you, Mr. Chairman.
    Secretary Shinseki, it is good to see you again. When you 
were talking about when Shinseki arrives and you start asking 
questions on a certain topic, it had been years since I thought 
about this, but I worked in several areas in refugee camps 
overseas and I guess it was in the spirit of the leadership of 
General Shinseki. When I would arrive at a refugee camp, the 
first thing I would ask for in order to send the right message 
is show me the latrines. And I had put those images out of my 
mind until this very moment, Secretary Shinseki. It was just 
some terrible photographs I have got of those latrines they 
showed me in those tours of refugee camps.
    The Chairman. So the Secretary reminds you of latrines?
    Mr. Snyder. Yeah, that is right.
    Sorry I was late getting here. I was at the Armed Services 
Committee, a hearing on Afghanistan.
    I wanted to ask about the GI Bill and some of the delays 
that we have had. I am going to talk about Stephanie Herseth 
Sandlin since she is not here. But I remember the day we passed 
the bill on the House floor and nobody has been more committed 
to that bill than she has in her role as the Chairman of that 
Subcommittee. But she said to me it is not ready yet. We need a 
few more hours. We need a few more days. We have got some 
technical issues there that we have got to work out. It is 
going to cause problems when they try to implement it.
    And, of course, the legislative process is sometimes, you 
have to go when it is time to go and get the bill passed. But 
that was one of the things I thought about when I first started 
reading the press reports.
    And then the other is the discussion. I sat in some of the 
Subcommittee hearings, you know. And the Chairman was there, 
too, and the discussion about information technology. And I 
know this is still a work in progress, but my impression is 
that the challenges that you had were not personnel ones, that 
you had the right people and very good people. Is that a fair 
statement?
    Secretary Shinseki. That is true.
    Mr. Snyder. And that the issue was the, you know, what pops 
up on computer screens, that it was a different kind of program 
than the previous GI Bill because previously the only thing 
they had to know was who I was and was I eligible. My benefit 
was the same essentially. But you now have a benefit that 
varies State to State.
    Would you describe the differences in the needs of the 
information technology?
    Secretary Shinseki. Well, what I can describe is the 
Chapter 33 Post-9/11 GI Bill requirements to provide the very 
best option to veterans State by State, school by school, 
tuition and fees as two critical pieces of information.
    In order to advantage veterans, we did not go to one school 
and take tuition and fees and set that as a standard. We went 
to the in-State institution that had the highest fees and then 
highest tuition and we took the top category so that when we 
put them together in favor of the veteran, there was going to 
be a good outcome.
    And so the veteran is given maximum flexibility on choice 
of course work.
    Mr. Snyder. Now, when the veteran goes and sits down and 
goes online to try to figure this out, the technology you have 
is still pretty out of date; is it not?
    Secretary Shinseki. For the application----
    Mr. Snyder. For the application.
    Secretary Shinseki. The application is better than the 
technology we are using to issue certificates of eligibility 
and paying. The important part here is paying those fees and 
tuition which requires multiple screens, different States, 
different rates, different courses, and so forth.
    It is a combination of many steps. And right now the manual 
system, augmented by computer--I mean, the fact that we do it 
on a computer says there is some automation, but it is 
essentially a manual process inside that computer. There is no 
opportunity for information to be populated automatically, to 
be manipulated.
    And so it is a manual process and there are nine steps when 
my guess is that the other education bills probably two to 
three steps.
    Mr. Snyder. Do you anticipate that, say, a year or 2 or 3 
from now that you will have a much more streamlined IT process 
both for the applicant but also from your side of things for 
doing the payments?
    Secretary Shinseki. We would like to have a much more 
powerful, much more robust option than we have today. We have 
not entered into that process. We were required to do some in-
house work. So we have a contract with SPAWARs who are going to 
deliver to us in early November a phase three of this series of 
computer-assisted programs.
    And the phase three will allow us greater flexibility than 
we have today. And that process with phase three will be much 
better than what we have today. It will solve many of the time-
consuming steps we are dealing with today and may get to the 
Ranking Member's questions about standardizing a lot more than 
we have.
    The long-term solution is to get something robust that is 
probably available out there commercially that we can probably 
employ pretty quickly. That is the long-term cure.
    Mr. Snyder. That is my understanding. I think the Chairman 
already issued the invitation for you to let us know if there 
is anything you need from us to help that along.
    Secretary Shinseki. I am very happy to do that. And, in 
fact, I would say this. Although it is not the best solution 
for the long-term, phase three that we get in the first week of 
November or early November, I am told will solve all of our 
current sort of backups that we are dealing with. But it is 
still not the long-term approved solution. We have got to work 
at both. We intend to.
    Mr. Snyder. Right. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Snyder.
    Mr. Buyer.
    Mr. Buyer. Mr. Secretary, Chairman Hall and Ranking Member 
Lamborn held a hearing, and I applaud their leadership, whereby 
they had testifying the Assistant Secretary of the Army for I 
believe it was Personnel that has oversight over Arlington. And 
we also had Mr. Cleland with the Battle Monuments Commission. 
We had testimony from the VA, Department of Memorial Affairs, 
and then we also had testimony from Katherine Stevenson who is 
the Assistant Director for Business Service at the National 
Park Service, U.S. Department of the Interior.
    So early on, I think even before you were sworn in, we had 
a conversation about the multiple standards with regard to our 
cemeteries. So I read your comments with regard to that last 
night, not about the multiple standards, but what you were 
doing.
    I wanted you to know, though, from the testimony, Ms. 
Stevenson brought up when she was asked if there was anything 
that we felt that she needed to help raise the standards within 
the Department of the Interior, you had received a commitment 
just like I have from Secretary Salazar to work on this issue, 
and they have a report that is going to be coming out here 
fairly soon, she said quote, this is her quote, ``Actually, 
fairly recently, I think in 2004, an Interagency Committee was 
established and we looked very much forward to working with 
that Interagency Committee, but the head of that Committee 
became ill, so the Committee was dissolved and we would like to 
see the Committee reconstituted so that we can discuss some of 
these issues of mutual concern.''
    So I guess what I am going to ask of you is, is if you 
could ensure that this Interagency Committee is established 
between VA, DoD, and the Department of the Interior and maybe 
it also could include the Battle Monuments Commission so that 
they can work together on these mutual issues with regard to 
making sure of the standardization with regard to the 
internments.
    Secretary Shinseki. Mr. Buyer, I am happy to do that. You 
and I have discussed the issue. I have made myself and our 
assets available to provide support, recommendations, and 
advice.
    Mr. Buyer. Okay.
    Secretary Shinseki. And that offer is still good.
    Mr. Buyer. All right.
    Secretary Shinseki. I will follow up on this.
    [The VA subsequently provided the following:]

  National Cemetery Interagency Operational and Management Activities

    At the October 14, 2009, House Committee on Veterans' 
Affairs (HVAC) State of VA Hearing, HVAC Ranking Member Buyer, 
voiced concern for conditions at Department of Interior (DOI)/
National Park Service (NPS) national cemeteries, and suggested 
the Secretary reconvene the ``Interagency Task Force on 
Government-Issued Headstones'' composed of Department of 
Defense, American Battle Monuments Commission, NPS and National 
Cemetery Administration (NCA) representatives. The interagency 
Committee's primary objective was the maintenance and 
preservation of stone headstones and markers, and it convened 
from December 2003 through September 2004. One outgrowth was a 
headstone-cleaning study, funded by NCA and undertaken by NPS. 
The study commenced in 2004, and is slated to be complete in 
fiscal year 2010.
    At the hearing, the Secretary committed to providing 
assistance to DOI national cemeteries. As a follow-up, on 
November 10, 2009, Acting Under Secretary for Memorial Affairs, 
Steve Muro, wrote to the NPS Director, Jonathan Jarvis, 
offering NCA's assistance, participation in a revived 
interagency Committee, and access to NCA Operational Standards 
and Measures. NCA staff has been actively collaborating with 
NPS staff on the following operational and management 
activities:

NPS Nationwide Cemetery Preservation Summit

    NCA staff participated in a 3-day summit in October 19-22, 
2009, organized by the NPS National Center for Preservation 
Technology & Training. Presentations on national cemetery 
standards, maintenance and operations, historical preservation, 
etc., were provided to 110 attendees (including staff from 7 of 
14 NPS national cemeteries, and NCA staff). NCA provided a 
hands-on tour of VA Nashville National Cemetery and all aspects 
of its operations, including headstone raising and realigning 
operations.

VA Advisory Committee on Memorials and Cemeteries

    At the November 18-19, 2009, Advisory Committee meeting, 
NPS Superintendent Brad Bennett, Andersonville National 
Historic Site and National Cemetery, serving as an ex-officio 
Member, provided an overview of cemetery site conditions and 
will present a progress report at the May 17-18, 2010, VA 
Advisory Committee meeting.

NPS National Cemetery Summit, Greeneville, TN

    NCA staff participated in a follow-up NPS Summit on 
December 16-17, 2009, with NPS National Cemetery Directors and 
staff. The Summit focused on updating and revising the NPS 
policy document, Director's Order # 61, which covers NPS 
cemetery operation and management policy and procedures, and 
discussions on national cemetery ``best practices.'' Following 
the Summit, teams continue to collaborate on ongoing 
assignments, which are due in mid-February. Participants also 
received a tour of the Andrew Johnson National Cemetery, where 
maintenance procedures were demonstrated. Approximately 26 
representatives from 12 of the 14 NPS-managed national 
cemeteries and 3 related NPS offices attended.

Planned Future Collaborative Actions

    <bullet> LNCA has extended an invitation for individual NPS 
National Cemeteries to establish a ``cemetery buddy'' with a VA 
National Cemetery in their region to share management and 
operational expertise relevant to geographic challenges.
    <bullet> LNCA will participate in the NPS Quarterly 
Conference Calls (3rd Wednesday of month: Feb. 2010, May 2010, 
Aug. 2010, Nov. 2010, etc.)
    <bullet> LNCA staff will participate in the NPS National 
Cemeteries Annual meeting, May 2010 (NPS Poplar Grove National 
Cemetery, Petersburg, VA) and in May 2011 (NPS Little Big Horn 
National Cemetery, Montana).
    <bullet> LNPS national cemetery staff will be invited to 
attend NCA annual and regional quarterly conferences, which 
include hands-on training, best practices and policy 
discussions.
    <bullet> LNPS staff will be invited to participate in 
management and operations training provided NCA and State 
Veterans Cemeteries staff at the NCA National Training Facility 
in St. Louis, MO.

    Mr. Buyer. Please do.
    The other is, it was not in your statement, but I want to 
work with you and work with Members of the Committee with 
regard to procurement reform and follow through with our 
conversations.
    The other is I look forward to working with you with regard 
to legislative technical corrections with regard to the GI Bill 
and work with other Members of the Committee. And I would ask 
that you work closely with, have your staff work closely with 
Ms. Stephanie Herseth Sandlin and Dr. Boozman. They and their 
staff have great levels of expertise and have worked with your 
staff in the past. And we would like to work on those technical 
corrections to put you in the best stead as you move forward 
into the spring.
    The other is Dr. Boozman brought up the issue with regard 
to the health bill as it moves through the Congress and through 
the Senate, making sure that we are able to protect the VA as a 
Health Department. There have been some amendments to do that. 
There have been some commitments, but I would like for your 
oversight to ensure that veterans will not be taxed that 2.5 
percent tax. And I think that is being corrected and I 
acknowledge your public comments.
    The other is with regard to the IT, I would like to applaud 
you. Chairman Filner and I and Members of the Committee, we all 
supported unanimously the efforts to centralize the IT. And we 
had recognized that a lot of money had been spent over the 
years on a full menu of IT systems that had never been 
launched. And so I applaud your scrutiny of those programs.
    And in February, you had testified that, ``That any more IT 
is very much integrated in those, meaning health activities, 
and that we should be sure that it is also how we parse that to 
ensure that is included so that our plans to provide services, 
health services and community-based outpatient clinics or open 
new CBOCs are not hindered by an inability to have that kind of 
flexibility.''
    So I, with regard to advanced appropriations, tried to make 
sure that your request that IT also be covered in advanced 
appropriations, even though it passed the House, it did not end 
up in the advanced appropriation. And, you know, I was the lone 
vote against the advanced appropriation. I felt that us not 
providing what you needed was wrong.
    And so as we move forward into the following budget cycle 
and you come back in a year, if you feel you need that budget 
and flexibility, please work with the Budget Committee and work 
with Congress so that we get you the flexibility that you need 
because of the integration of health and IT. Excluding that, I 
think we have given you some challenges.
    The Chairman. Thank you, Mr. Buyer.
    Thank you, Mr. Secretary, for joining us today.
    Let me just note that you promised different Members 
responses to their issues and I hope that you will provide 
those to the whole Committee. We are involved with all of them, 
so----
    Secretary Shinseki. I will.
    The Chairman [continuing]. Please make sure that happens. 
Let me also say that you have done some incredible things in 
just a short time. I think your style, though, is to hide your 
light under a bushel. And as you say, you are not running for 
office, but I think your Department is running for office.
    The things we had to do in your first appearance here, is 
to buildup the morale not only of the VA employees but the 
confidence that veterans have in the VA. One way to do that is 
to make sure people understand the great things you are doing.
    The homeless program that you have enunciated is an 
incredible commitment. It almost came up as an afterthought in 
just today's testimony. We need to publicize that in ways that 
people understand what you are trying to do. You can have a 
visual in a random city like San Diego and in a homeless 
shelter, but I think we need your commitment to zero tolerance. 
It is an important message to get out there.
    The forward funding issue is a revolutionary step that will 
give all veterans and your employees confidence that we are 
doing the right thing. I hope the President will hold a signing 
ceremony to highlight this issue.
    Even the administrative steps you took just this week in 
reference to the Agent Orange presumptions--that decision 
affects thousands of people in a very positive way. In fact, 
all of the Vietnam veterans understand the importance of the 
decision--if they knew that it had been made. It gets around by 
word of mouth, but I think you have to use your Public Affairs 
Office to get this story out in a much more public way. It is 
just my advice.
    The pride that we have with what you are doing should be 
spread. Again, that will help the morale of not only your 
employees but the veterans who have had problems over the years 
with the VA. I hope that we can find ways to do that.
    Secretary Shinseki. Mr. Chairman, thanks for your 
confidence here. And I, you know, I think we can improve in 
this area and we will make the effort to. I will be sure to 
take your counsel here.
    The Chairman. We have got to shine that light.
    There is another area that I would like us to think a 
little bit about. I want us to think outside the box. We have 
some problems that have been presented to the VA, which may, in 
term, be solutions to other problems.
    As an example, we have some facilities that have been 
underutilized both because of demographic changes and because 
of a model switch from an inpatient to an outpatient model in 
the VA.
    I would hate to see any one of those facilities leased out 
or sold when they could meet the needs in other areas, such as 
homelessness. I visited the hospital that Mrs. Halvorson talked 
about and it was not in a neighborhood where people would have 
NIMBY concerns. Every room was set out for a patient. It would 
be a great opportunity for homeless housing. We have an 
opportunity here and there are other facilities that the VA 
itself is thinking of selling or leasing. I think we should 
look at how they can solve other problems.
    Keep that in mind both in terms of the homeless problem and 
the north Chicago decision that you announced earlier. I think 
it was probably the only real integration of a military 
hospital and a VA hospital. I'm sure decisions were made 
between VA and DoD to make the most efficient use of the space.
    One thing that struck me that you might think about but you 
did not list is changing the culture to accommodate our women 
veterans. One of the things that we have heard in testimony is 
that when women veterans come for an appointment, they may have 
to bring their child or children. We've heard that doctors will 
not see them in some places if they have their children. We 
have got to start thinking about child care. It should not be 
outside our thinking.
    When you walk into the VA section of the north Chicago 
facility, the pediatric office is right on the first floor. 
What happens when you walk into a VA facility? There are kids 
running around. It changes the whole ambience. It is not a 
bunch of old guys in wheelchairs. Of course, I say that with 
respect. But you have kids jumping in the laps of veterans. You 
have got the veterans playing with the kids. It changes 
everything.
    You might just think about that as we think about the needs 
of our women veterans. Maybe we should put a pediatric office 
in to serve some of those children, and that also serves our 
veterans. It changes everything. There is life and there is 
action and there is humanity there.
    Again, it is a problem from one angle, but it is an 
opportunity to really change the way we are doing things. Just 
a couple of things I think you should keep in mind.
    If I just may briefly comment on a couple of things that 
others mentioned. You said you have to do a lot of work to 
serve the rural veterans. This Committee is going to do some 
more work on this issue, as well.
    From my travels around the country, it seems to me that one 
of the easiest ways to deal with the lack of access is to use 
the fee-base authority much more liberally. Medical directors 
have the authority to allow a veteran to get care in their 
local community. They do not like to use that often. I suspect 
there are real concerns about quality and cost and I understand 
that when you are dealing with a system like the VA.
    However, if a medical director is concerned that he is 
going to be evaluated on his budget surplus at the end of a 
year, he may not use that authority as often. I think they need 
to be encouraged to use it without penalty. It should be used 
in a way that it helps our veterans with access and it might 
solve a lot of these access problems that we do have in rural 
areas.
    There is a bureaucratic dynamic here with the budgets that 
I think may be at play, not just the real concern that we 
should have with cost and quality. Just another thought.
    On other issues around community outreach, is the homeless 
initiative. I think the amount of money is a half a billion 
dollars for community programs that are helping us in this 
area. I think we have to look at the VA as welcoming this kind 
of help all over the place.
    Our budget is about a $100 billion. Well, 1 percent of that 
is $1 billion. One billion dollars is a lot of money, but one 
percent of our budget. I think you should to think about not 
only in homelessness but in other areas such as mental health. 
Some of the issues that other Members brought up as an outreach 
program to say we welcome all the help that is available. We 
are not a closed body.
    Your candor, humility and your sense that we need other 
people to help can be fostered by setting up a fund in all 
areas.
    I have one more issue and then you will get the last word. 
One of the things that we have talked about a lot in the last 
few years is accountability. We have had some scandals over the 
years and nobody ever saw employees fired as a result. Maybe 
there was and dealing with personnel is a tricky matter.
    We have had a couple of incidents take place during your 
administration with either the way we were treating cancer 
patients or the endoscopic cleaning. When we talked, you 
assured me there would be some personnel consequences but I do 
not know that there have been.
    Again, it is a hard issue to balance but I think people 
both outside the VA and inside the VA need to see some sense 
that we take this so seriously that people maybe lose their 
jobs. They are serious enough to have lost their jobs.
    The converse of that is also in the bonus area. If there 
are clear areas where we have fallen short and then to see the 
people in charge of that shortfall get bonuses, that sends the 
wrong message.
    Those are the accountability issues. Maybe you could start 
with that and then comment on anything else that I mentioned.
    I really enjoy working with you, Mr. Secretary. I think 
everyone here on both sides of the aisle are committed to 
veterans. We know you are. We want to help you in doing 
anything we can. We are out there a lot, too, and we have eyes 
and ears that we think are useful for you. We look forward to 
deepening that partnership.
    You have as much time as you need to either respond or to 
address any other issues that you feel are important.
    Secretary Shinseki. I am not sure I can respond to all of 
them, Mr. Chairman. I would just say on accountability----
    The Chairman. I hope Joan took notes.
    Secretary Shinseki. I am sorry.
    The Chairman. I hope Joan took notes.
    Secretary Shinseki. Accountability is important with me. 
And I would just very quickly in response to some of the 
disappointments that have occurred you can be assured that 
people have been held accountable. And I am happy to come and 
provide details of that.
    You mention bonuses. I call it performance pay. I think we 
are talking about the same thing. It is based on performance. I 
look at performance two ways. One, you know, the brilliant 
stroke of genius that comes in and solves a heretofore 
unsolvable problem. That is one kind of performance.
    Another one is there is no stroke of genius and there are 
some people who come, knuckle down, and just get the work done 
in spite of the fact that there is no recognition and 
expectations are high. I would offer there is room for 
adjudging that kind of performance as well.
    We have a process inside the Department where there is a 
series of reviews on folks who are being nominated for 
performance, increase in performance pay. Ultimately it ends up 
with me. We have not gone through that process yet this year. 
And when we have done it, I am more than happy to come and show 
you the results. I think you will be satisfied that 
accountability does count with me and with the leadership I 
have put in place.
    You mentioned some of our available facilities for 
homeless. I have asked that we take a look at our footprint and 
see how it can be used in other ways. Homelessness is one. 
Long-term care for patients that are going to need our help for 
a long time is another. And we talk about child care that 
should include some opportunity for families to be part of that 
solution. And so we are looking at all of that.
    We have raised the question about child care. I know there 
are a couple of anecdotal incidents in which women veterans 
reported not being able to keep their appointments because they 
showed up with children. I can assure the Chairman that 
guidance has gone out to correct that. Women veterans showing 
up with children will be seen with the exceptions that would 
make sense here and the exceptions being those settings in ICU 
or mental health where it would not be good to have children in 
that environment. We would find other ways to take the child 
and care for it.
    But right now the authorities are not within the Department 
to be able to provide child care services on our own and this 
may be one of those things that we have a discussion with the 
Chairman and Members of the Committee on how we might look for 
some help here.
    Mr. Chairman, I think I will leave the comments to that.
    The Chairman. Okay.
    Secretary Shinseki. I will reserve for a later time the $1 
billion outreach suggestion.
    The Chairman. Thank you.
    Bringing in people from different parts of the country who 
have Parkinson's and presenting them with their benefits based 
on decision of VA would be symbolic because there are people 
that many of us have been in contact with that have been 
fighting for this for many years. Let us show that we listened 
to them. Bring the veterans in, not just the politicians, they 
have suffered and we have heard them. I recommend something 
like that to you, Mr. Secretary.
    Incidentally, you talked about several pilots going on with 
the claims process. You started this by trying to deal with it 
by brute force, that is, hiring more and more people. I am not 
sure if that is going to work or not.
    I would urge a pilot with the so-called ``Bilmes plan'' 
that claim, if it is done with the help of a veterans service 
officer, be accepted at some level subject to audit and get the 
check out right away. If you try that somewhere, it might be 
successful. Deputy Scott understands the program very well.
    When I talk about community outreach, one thing that has 
come up as a very innovative program around the country is 
Veterans Court. We have one model that is trying to be 
duplicated in many other places and could use a little seed 
money from the VA.
    When you have 300 homicides by Vietnam veterans, most of 
which--I am sorry, not Vietnam veterans--Iraq and Afghanistan 
veterans, most of which have been family members, you have to 
ask yourself what's going on. These kids did not come back to 
kill their spouses or their children or themselves, so what is 
it that we are not, as a Nation, doing to prevent this.
    When these men and women are incarcerated or face the 
judicial system, it seems to a lot of people that a treatment 
rather than incarceration is the appropriate action. As you 
know, Buffalo has created the court and it is trying to be 
duplicated around the country. Some seed money from the VA to 
communities to get people together to include the prosecutors, 
the district attorneys and the parole officers would be a 
great, great contribution for the Nation.
    Those are just some ideas that I would line-item.
    Again, we appreciate your work. We appreciate your 
testimony. It has been a pleasure.
    I know you have reached out to every Member of this 
Committee and other Members in Congress for personal 
discussions and personal interaction. Everybody here 
appreciates it. They come up to me on the floor and say, I 
talked to your Secretary today and he is really great. So that 
has a real impact and we appreciate it.
    You have one more chance for the last word. Otherwise, we 
will be adjourned. I leave it to you, Mr. Secretary.
    Secretary Shinseki. No. I just would close with just 
thanking the Chairman. I always, you know, I look forward to 
this opportunity to come and present what we are doing and take 
the insights and, you know, the suggestions of Members of this 
Committee who have been at this much longer than I have. I 
appreciate that. I tell you that we take that advice and we go 
do something about it. And I intend to continue to do that.
    Thank you very much.
    The Chairman. Thank you, sir. This hearing is adjourned.
    [Whereupon, at 12:11 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Bob Filner, Chairman,
                  Full Committee on Veterans' Affairs

    I would like to thank the Members of the Committee, Secretary 
Shinseki, and all those in the audience, for being here today.
    According to former presidential candidate Adlai Stevenson, 
``Patriotism is not short outbursts of emotion, but the tranquil and 
steady dedication of a lifetime.'' Our servicemembers and veterans have 
proven their dedication with their bravery and their sacrifice. America 
must continue to show her tranquil and steady devotion to the heroes 
that have fought on the battlefields and returned home. The way in 
which we treat our veterans has a direct impact on our ability to 
recruit men and women in the future, and is a reflection of the values 
and ideals we hold as a Nation.
    The VA oversees the largest integrated health care system in the 
country and operates a vast array of benefits programs meant to support 
and salute the soldier, sailor, airman and marine. Together, Mr. 
Secretary, we have taken great strides in the 111th Congress to provide 
our veterans the quality health care and services that they require and 
they have earned. I share your goal to build better lives for America's 
veterans and their families and survivors. We have made a contract with 
our veterans that we must keep.
    First, I would like to thank you for requesting veterans funding 
levels that appropriately reflects the needs of our veterans more than 
any other budget requested by a President since I have served on this 
Committee. The House approved a funding bill that adds $14.5 billion 
over the current fiscal year and is the third straight budget to exceed 
the request of the Independent Budget. Although the funding bill has 
not yet passed, I am proud that we have put forward a budget that is 
worthy of the service and sacrifice of our veterans.
    I am also grateful for your leadership in working with Congress to 
establish a historic new approach to providing adequate and timely 
funding for veterans' health care. Just last week, the House passed a 
bill that responds to late budgets by allowing Congress to fund VA 
health care 1 year in advance. This bill is a top priority of veterans 
service organizations because it will not subject VA to delays and 
uncertainty--and will finally allow sufficient time to plan how best to 
deliver health care.
    The VA is facing the issue of caring for our returning 
servicemembers, and the veterans of previous conflicts. The VA must 
rise to the challenge of meeting the needs of these veterans, 
especially in the areas of traumatic brain injury care, musculoskeletal 
conditions, and post-traumatic stress disorder treatment, maintaining 
its excellence in specialized services, and addressing access to care 
issues. These are challenges that we have begun to work on together and 
challenges we must meet as a Nation.
    Mr. Secretary across the Nation, veterans who applied for benefits 
under the GI Bill, have been told their payments are being delayed 
because of an overwhelming number of problems at both the Department 
and the schools. Although the VA has issued emergency checks for $3,000 
to students, many veterans taking advantage of the program say they 
have not been told when or if they will be getting their full payments. 
We hope to hear today about the ongoing implementation of the Post-9/11 
GI Bill--which can only help our veterans become part of the economic 
recovery if they have access to their benefits in a timely way.
    The VA is also facing the issue of providing the benefits earned by 
our veterans in a timely way. The VA must address the growing backlog 
of claims filed by those that served in uniform. We must tackle the 
claims backlog that stymies our wounded veterans from receiving the 
benefits they earned and deserve.
    Mr. Secretary, today, we hope to hear your views on the successes 
and the challenges that face us and our veterans. We also are hopeful 
to hear how we can be best helpful in addressing those issues.
    Mr. Secretary, the Committee is grateful to you, as well as the 
devoted employees of the VA, for the dedication to veterans that you 
all demonstrate day after day. No matter where we may stand on the 
current conflicts, we are here today because we must be united in 
seeing that our brave servicemembers are welcomed back with all the 
compassion this grateful Nation can bestow.

                                 <F-dash>
        Prepared Statement of Hon. Eric K. Shinseki, Secretary,
                  U.S. Department of Veterans Affairs

    Chairman Filner, Ranking Member Buyer, Distinguished Members of the 
Committee:
    Thank you for this opportunity to report on the state of the 
Department of Veterans Affairs (VA). We appreciate the longstanding 
support of this Committee and its unwavering commitment to veterans--
demonstrated, yet again, through your support of advanced 
appropriations legislation for VA. Let me also express my thanks to the 
Committee and the President for a remarkable 2010 Budget that provides 
an extraordinary opportunity to begin transforming the Department. We 
deeply appreciate your confidence and the confidence of the President 
in building on the 2008 and 2009 Congressional enhancements to VA's 
budgets in those years. We are determined to provide a return on those 
investments.
    I would also like to acknowledge the presence of representatives 
from a number of our Veterans' Service Organizations. They are our 
partners in assuring that we have met our obligation to the men and 
women who have safeguarded our way of life. We always welcome their 
advice on how we might do things better.
    Mr. Chairman, this past February, you held a similar hearing on the 
state of the Department, which allowed me to benefit from the insights 
and advice of Members of this Committee early in my tenure as 
Secretary. In turn, I was also able to offer early assessments of VA's 
mission and some principles that I felt might help me quickly 
communicate my intent and direction for the Department. I have learned 
a lot in the last 8\1/2\ months from some truly impressive people at 
VA; from veterans, individually and collectively; from the VSOs; from 
Members of this and other Committees, and from a host of other key 
stakeholders, who share both the Department's interests and my personal 
passion for making VA the provider of choice in the years ahead. My 
current vectors for this Department remain guided by those principles 
that I mentioned in testimony in February. As I continue working to 
craft a shared Vision for the Department, one that will be enduring, we 
remain guided by our determination to be People-Centric--veterans and 
the workforce count in this Department, Results-driven--we will not be 
graded on our promises, but by our accomplishments, and Forward-
looking--we strive to be the model for governance in the 21st Century.
    This testimony comprises a 9-month progress report on the state of 
our Department.
    We have been busy putting into place the foundation for our pursuit 
of the President's two goals for this Department: transform VA into a 
21st Century organization, and ensure that we provide timely access to 
benefits and high quality care to our veterans over their lifetimes, 
from the day they first take their oaths of allegiance until the day 
they are laid to rest.
    Every day 298,000 people come to work to serve veterans. Some do it 
through direct contact with veteran clients; others do so indirectly. 
But, we all share one mission--to care for our Nation's veterans, 
wherever they live, by providing them the highest quality benefits and 
services possible. We work each and every day to do this faster, 
better, and more equitably for as many of our Nation's 23.4 million 
veterans who choose us as their provider of services and benefits. 
Today, that number is roughly 7.8 million veterans.
    Veterans put themselves at risk to assure our safety as a people 
and the preservation of our way of life. Not all of them are combat 
veterans, but all of them were prepared to be. VA's mission is to care 
for those who need us because of the physical and mental hardships they 
endured on our behalf, the cruel misfortunes that often accompany 
difficult operational missions, and the reality of what risk taking 
really means to people in the operational environment.
    The health care, services, and benefits we provide are in great 
demand--a demand which grows each year. More than four million new 
veterans have been added to our health care rolls since 2001. Some of 
our youngest veterans are dealing with the effects of post traumatic 
stress disorder (PTSD), traumatic brain injury (TBI), and other 
polytrauma injuries. We will provide them the care they deserve, even 
as we continue to improve the quality of care we deliver to veterans of 
all previous generations--World War II, Korea, Vietnam, Grenada, 
Panama, Somalia, Desert Storm, and a host of smaller operational 
deployments. The President's decision to relax income thresholds 
established in 2003, which froze Priority Group 8 enrollments, has 
enabled many more veterans to access the excellent health care 
available through our Veterans Health Administration (VHA). It has 
increased VA's workload, but we are prepared to accommodate up to 
500,000 enrollees, who are being phased in over the next 4 years. While 
the Post-9/11 GI Bill offers serving military and our newest veterans 
expanded educational opportunities, it has challenged the Veterans 
Benefits Administration's (VBA's) paper-bound processes. We are moving 
aggressively to transform VBA from paper to electrons, even as the 
entire organization picks up the pace of producing more, better, and 
faster decisions both in disability claims and educational benefits. 
Finally, the honor of providing final resting places for our veterans 
remains a source of immense professional pride for the National 
Cemeteries Administration (NCA), and indeed the rest of VA. NCA 
consistently meets the demographic standards associated with veteran 
burials and exceeds expectations with regard to care and compassion for 
heroes' families. NCA interred approximately 107,000 veterans in the 
past year in our 130 national cemeteries. Five new national cemeteries 
have been opened, and sixteen cemetery projects have been funded for 
expansion in the past year to address our requirements in this area.
    Our veterans have earned and deserve our respect and appreciation 
for their sacrifices and the sacrifices of their families. We at VA are 
privileged to have the mission of demonstrating the thanks of a 
grateful Nation. We are obliged to fulfill these responsibilities 
quickly, fully, and fairly--especially given the current economic 
climate. All of us, at VA, accept these increases to an already 
demanding workload, and we will meet our responsibilities at a high 
standard. Doing so will offer VA as a genuine provider of choice for 
those veterans who, today, choose to go elsewhere for insurance, health 
care, education loans, home loans, and counseling. To achieve this kind 
of standing with veterans, we must make entitlements much easier to 
understand and then far more simple to access.
    Each day, dedicated, compassionate professionals at VA do the 
extraordinary to meet the needs of veterans across a broad spectrum of 
programs and services.
    Among them:

    <bullet>  VA is second only to the Department of Education in 
providing educational benefits of $9 billion annually.
    <bullet>  VA is the Nation's eighth largest life insurance 
enterprise with $1.1 trillion in coverage, 7.2 million clients, and a 
96 percent customer satisfaction rating.
    <bullet>  VA guarantees nearly 1.3 million individual home loans 
with an unpaid balance of $175 billion. Our VA foreclosure rate is the 
lowest among all categories of mortgage loans.
    <bullet>  VA is the largest, integrated health care provider in the 
country, with 7.9 million veterans enrolled in our medical services 
system.
    <bullet>  VA developed and distributed enterprise-wide, VistA, the 
most comprehensive electronic health record (EHR) in the country, 
linking our 153 medical centers to their 774 Community Based Outpatient 
Clinics (CBOCs), 232 veterans Centers, as well as outreach and mobile 
clinics.
    <bullet>  VA received an ``Among the Best'' ranking for its mail 
order pharmaceutical program, ranking with Kaiser Permanente Pharmacy 
and Prescriptions Solutions, in a J.D. Power and Associates survey of 
12,000 pharmacy customers.
    <bullet>  A VA employee, Dr. Janet Kemp, received the ``2009 
Federal Employee of the Year'' award from the Partnership for Public 
Service 3 weeks ago. Under Dr. Kemp's leadership, VA created the 
veterans National Suicide Prevention Hotline to help veterans in 
crisis. The Hotline has received over 185,000 calls--an average of 375 
per day--and interrupted over 5,200 potential suicides.
    <bullet>  VA has staffed a Survivors' Assistance Office to advocate 
for veteran and servicemember families. As the ``Voice of Survivors,'' 
its purpose is to create and modify programs and services to better 
serve survivors.
    <bullet>  VA's OIT (Office of Information Technology) office and 
VBA collaborated with the White House to create a program soliciting 
original ideas from VA employees and participating VSOs, ranging from 
improving process cycle times for benefits to increasing veteran-
satisfaction with the claims process. Close to 4,000 process-
improvement ideas have been received.
    <bullet>  VA operates the country's largest national cemetery 
system with 130 cemeteries.
    <bullet>  VA senior executives are accountable and responsible when 
these systems succeed and when they fall short. As of September 2009, 
VA maintained one of the lowest executive to employee ratios 
(approximately 312 career executives to approximately 298,400 
employees). I have seen their dedication to serving veterans.

    I am proud of our people and our accomplishments, but there have 
been challenges, missed opportunities, and gaps in providing the 
quality of care and services veterans expect and deserve. We will 
continue to look for and find our failures and disappointments; we will 
be open and candid with veterans, the Congress, and other stakeholders 
when we fall short; and we will correct those problems, take the right 
lessons from them, and improve the process to achieve the best 
outcomes. In recent months, we have discussed with the Committee lapses 
in quality control and safety regarding endoscopes and other reusable 
equipment, erroneous notifications of ALS diagnoses, and expensive IT 
initiatives that were not meeting program thresholds.
    Near-term challenges have been riveting. Since enactment, the new 
Post-9/11 GI Bill has been our top priority for successful 
implementation by August 3, 2009. These completely new benefits, 
requiring tools different from the ones available to us, resulted in 
massive Information Technology (IT) planning efforts on short 
timelines. Delays and setbacks required VA to exercise emergency 
procedures 2 weeks ago to issue checks to veterans to cover their 
expenses early in program execution. Uncertainty and great stress 
caused by these delays were addressed through these emergency 
procedures, which remain in effect. We will mature our information 
technology tools to assure timely delivery of checks in the future.
    We must work short-term and long-term strategies to reduce the 
backlog of disability claims, even as they increase in number and 
complexity. In July, we closed out a VA-record 92,000 claims in a 
single month--and received another 91,200 new ones. We are 
consolidating and investing in those IT solutions integral to our 
ability to perform our mission while looking hard at those that have 
not met program expectations--behind schedule or over budget. In July, 
we paused 45 IT projects, which failed to meet these parameters. These 
projects are under review to determine whether they will be resumed or 
terminated. We know this is of intense concern and interest to Members 
of this Committee, and we appreciate your continued support and 
insights.
    In working these near-term demands, we are simultaneously 
addressing, in 2010 and the years beyond, improvements to programs and 
new initiatives critical to veterans--reducing homelessness, enhancing 
rural health care, better serving our growing population of women 
veterans, and refreshing tired, and in a number of cases unsafe, 
infrastructure.
    To embrace these priorities, we have put in place a strategic 
management process to focus our stated goals and sharpen 
accountability. We are close to releasing a Department of Veterans 
Affairs Strategic Plan, in which I look forward to outlining for you 
the strategic goals that will drive our decisions over the next 5 
years, and potentially longer.
    I've now engaged in 8 months of study, collaboration, and review of 
as many aspects of VA's operations with as many of our clients, 
employees, and stakeholders, as the Deputy Secretary and I could 
manage. I've visited VA facilities--large and small, urban and rural, 
complex and simple--all across the country. I've spoken with leaders, 
staffs, and veterans. I also invited each of our 21 Veterans Integrated 
System Network (VISNs) directors to share with me, in dedicated 4-hour 
briefings, their requirements; their priorities; their measurements for 
performance, quality, and safety; and their need for resources--people, 
money, and time. I've also received multiple briefings from VBA 
leadership on the extent and complexity of the benefits we provide to 
veterans. This has been time well-invested--invaluable.
    The veterans I've met in my travels have been uplifting. Many 
struggle with conditions inevitable with old age; others live with 
uncertain consequences from exposures to environmental threats and 
chemicals; still others have recently returned from Afghanistan and 
Iraq bearing the fresh wounds of war--visible and invisible.
    Out of my discussions with veterans, three concerns keep coming 
through--access, the backlog, and homeless veterans.
    Access: Of the 23.4 million veterans in this country, roughly eight 
million are enrolled in VA for health care. 5\1/2\ million unique 
beneficiaries have used our medical facilities. We want to ensure that 
any veteran who can benefit from VA services knows the range of 
services available to them. VA will continue reaching out to all 
veterans to explain our benefits, services, and the quality of our 
health care system. A major initiative which will expand access is the 
President's decision to relax the income thresholds established in 
2003, which prohibited new Priority Group 8 enrollments. We expect up 
to one-half million new Priority Group 8 enrollees in the next 4 years.
    Another initiative to expand and improve access is the evolution of 
our health care delivery system. About a decade ago, VA decided to move 
toward the system of care being provided in the private sector by 
turning its focus to outpatient care and prevention. As a result, VA's 
153 medical centers are the flagships of our nationwide integrated 
health care enterprise, and the Department also provides care through a 
system of 774 Community Based Outpatient Clinics (CBOCs), 232 Vet 
Centers, outreach and mobile clinics, and when necessary, contracted 
specialized health care locally. This fundamental change in delivery of 
care, means organizing our services to meet the needs of the veteran 
rather than the needs of the staff--veteran-centric care.
    Our next major leap in health care delivery will be to connect 
flagship medical centers to distant community-based outpatient clinics 
and their even more distant mobile counterparts via an information 
technology backbone that places specialized health care professionals 
in direct contact with patients via telehealth and telemedicine 
connections. Today, we are even connecting medical centers to the homes 
of the chronically ill to provide better monitoring and the prevention 
of avoidable, acute, episodes. This means that veterans drive less to 
receive routine health care and actually have better day-to-day access. 
It also means higher quality and more convenient care, especially for 
veterans challenged by long distances; and, prevention will mean 
healthier lives.
    While this new, evolving VA model of health care is less about 
facilities and more about the patient, it is also more economically 
efficient and a better use of available resources. Health care centers 
that provide outpatient care, including surgery and advanced diagnostic 
testing, have lower construction costs compared to traditional 
hospitals. They better serve communities, and are more cost effective, 
than small, traditional hospitals with low numbers of veterans 
receiving inpatient care. To provide emergency and inpatient care when 
needed, VA forms alliances and relationships with local civilian 
facilities for that care. Outreach clinics also allow us to provide 
health care services in communities with smaller numbers of veterans. 
These part time clinics are situated in leased space, and provide in-
person care closer to the veterans' homes.
    Critical to improving veterans' access to health care is our 
campaign to inform and educate them about how VA delivers care. Using 
social media Web sites, including MyHealtheVet and Second Life, we are 
making contact with veterans, including our Operation Enduring Freedom/
Operation Iraqi Freedom veterans, who did not respond to traditional 
outreach--lectures, pamphlets, and telephone calls.
    All of these initiatives to improve access are conducted with 
assessments of patient privacy issues. Privacy is important for all 
veterans, but we especially want women veterans to know that the VA 
will provide their care in a safe, secure and private environment that 
is designed to meet their needs. While approximately 8 percent of 
veterans are women, only about 5.5 percent of VA patients are women. My 
intent is to create an environment of care that will attract more of 
them to the VA as their first choice for care.
    The disability claims backlog: Reduction of the time it takes for a 
veteran to have a claim fairly adjudicated is a central goal for VA. 
The total number of claims in our inventory today is around 400,000, 
and backlogged claims that have been in the system for longer than 125 
days total roughly 149,000 cases. Regardless of how we parse the 
numbers, there is a backlog; it is too big, and veterans are waiting 
too long for decisions.
    In April, President Obama charged Defense Secretary Gates and me 
with building a fully interoperable electronic records system that will 
provide each member of our armed forces a Virtual Lifetime Electronic 
Record (VLER) that will track them from the day they put on the 
uniform, through their time as veterans, until the day they are laid to 
rest.
    VA is a recognized leader in the development and use of electronic 
health records. So is the Department of Defense. Our work with DoD is 
already having an impact on the way we are able to provide quality 
health care to our veterans. To date, VA has received from DoD two and 
one-half million deployment-related health assessments on more than one 
million individuals, and we are able to share between Departments 
critical health information on more than three million patients. 
Although our work is far from finished, our achievements here will go 
beyond veterans and our servicemembers to help the Nation as a whole, 
as have many of VA's historic medical innovations.
    We are working with the President's Chief Performance Officer, 
Chief Technology Officer, and Chief Information Officer, to harness the 
powers of innovation and technology. In collaboration with our own IT 
leadership, we intend to revolutionize our claims process--faster 
processing, higher quality decisions, no lost records, fewer errors. I 
am personally committed to reducing the processing times of disability 
claims. We have work to do here. But we understand what must be done, 
and we are putting the right people to work on it.
    Homelessness: Veterans lead the Nation in homelessness, depression, 
substance abuse, and suicides. We now estimate that 131,000 veterans 
live on the streets of this wealthiest and most powerful Nation in the 
world, down from 195,000 6 years ago. Some of those homeless are here 
in Washington, D.C.--men and women, young and old, fully functioning 
and disabled, from every war generation, even the current operations in 
Iraq and Afghanistan. We will invest $3.2 billion next year to prevent 
and reduce homelessness among veterans--$2.7 billion on medical 
services and $500 million on specific homeless housing programs. With 
85 percent of homelessness funding going to health care, it means that 
homelessness is a significant health care issue, heavily burdened with 
depression and substance abuse. We think we have the right partners, 
the right plans, and the right programs in place on safe housing. We'll 
monitor and adjust the balance as required to continue increasing our 
gains in eliminating veteran homelessness. We are moving in the right 
direction to remove this blot on our consciences, but we have more work 
to do.
    Effectively addressing homelessness requires breaking the downward 
spiral that leads veterans into homelessness. We must continue to 
improve treatment for substance abuse, depression, TBI and PTSD; better 
educational and vocational options, much better employment 
opportunities; and more opportunities for safe and hospitable housing. 
Early intervention and prevention of homelessness among veterans is 
critical. We have to do it all; we can't afford any missed 
opportunities.
    The psychological consequences of combat affect every generation of 
veterans. VA now employs 18,000 mental health professionals to address 
their mental health needs. We know if we diagnose and treat, people 
usually get better. If we don't, they won't--and sometimes their 
problems become debilitating. We understand the stigma issue, but we 
are not going to be dissuaded. We are not giving up on any of our 
veterans with mental health challenges, and definitely not the 
homeless.
    We have approximately 500 partners in nearly every major town and 
city across the country helping us get homeless veterans off the 
streets. With 20,000 HUD-VASH vouchers from the Department of Housing 
and Urban Development, and our $500 million to invest in 2010 to cover 
safe housing and rehabilitation for veterans we have been able to coax 
off the streets, we are going to continue reducing the number of 
homeless veterans next year, and each year thereafter, for the next 5 
years.
    I know that this Committee and the President are committed to 
helping VA end homelessness among veterans. We are going to do 
everything we can to end homelessness among veterans over the next 5 
years. No one, who has served this Nation, as we have, should ever find 
themselves living without care--and without hope. I know that there are 
never any absolutes in life, but unless we set an ambitious target, we 
would not be giving this our very best efforts in education, jobs, 
mental health, substance abuse, and housing.
    Education: The President kicked off our post 9/11 new GI Bill 
program on 3 August, 2009. Two hundred sixty-seven thousand veterans 
have applied and been found eligible to participate in this benefits 
program this year, and we project that as many as 150,000 more may 
apply next year. The first time we did this, in 1944 during World War 
II, our country ended up being richer by 450,000 trained engineers, 
240,000 accountants, 238,000 teachers, 91,000 scientists, 67,000 
doctors, 22,000 dentists, and a million other college-educated 
veterans. They went on to provide the leadership that catapulted our 
economy to world's largest and our Nation to leader of the free world 
and victor in the Cold war.
    Slow processing of enrollment certificates by VA and slower than 
anticipated submission of enrollment documents by some educational 
institutions delayed issuance of checks to schools and veterans. On 2 
October, VA began an emergency disbursement of moneys nationally, 
working with the Treasury Department to provide almost $70 million in 
advance payments to more than 25,000 veterans in the first 2 days of 
the program. These payments continue as a way to bridge the gap until 
the veterans' routine, monthly payments begin. We will do whatever it 
takes to get checks into the hands of veterans for their education, and 
we will improve the delivery system to eliminate the barriers to 
effective distribution of benefits in future years.
    Jobs: This summer, I addressed over 1,700 veteran small business 
owners at the 5th Annual Small Business Symposium on 21 July. I 
reminded them that Veterans hire Veterans because they know what 
they're getting. Customers and partners value their skills, knowledge, 
and attributes and are eager to work with them. Just last fall, in a 
survey conducted by the Society for Human Resource Management, over 90 
percent of employers said they valued veterans' skills, in particular, 
their strong sense of responsibility and teamwork.
    VA puts veterans first in our contracting awards because we 
recognize the on-time, on-budget, quality solutions they bring to our 
contracting needs. In fiscal year 2008, our unique ``Veterans First'' 
buying program resulted in VA's spending more than $2 billion on 
veteran-owned small businesses. That represented 15 percent of our 
procurement dollars, up 5 percent from the previous year. One point six 
billion dollars of that amount was invested in service-disabled, 
veteran-owned businesses.
    At VA, our experience is that veteran-owned small businesses have a 
high likelihood for creating new jobs, developing new products and 
services, and building prosperity. Increasing opportunities for 
veteran-owned small businesses is an effective way to help address many 
needs during this economic downturn.
    So, education, jobs, health care, and housing: We have work to do 
here; but we have momentum, and we know where we are headed. We are 
positively engaged with the Departments of Housing and Urban 
Development, Labor, Health and Human Services, Education, and the Small 
Business Administration to work our collaborative issues.
    A transformed VA will be a high-performing 21st century department, 
a different organization from the one that exists today. Beyond the 
next 5 years, we're looking for new ways of thinking and acting. We are 
asking why, 40 years after Agent Orange was last used in Vietnam, this 
Secretary had to adjudicate claims for service-connected disabilities 
that have now been determined presumptive. And why, 20 years after 
Desert Storm, we are still debating the debilitating effects of 
whatever causes Gulf War Illness. If we do not stay attuned to the 
health needs of our returning veterans, 20 or 40 years from now, some 
future Secretary could be adjudicating presumptive disabilities from 
our ongoing conflicts. We must do better, and we will.
    VA's mission is inextricably linked to the missions of the 
Departments of Defense (DoD) and Health and Human Services (HHS)--and 
closely linked to the Departments of Housing and Urban Development, 
Education, Labor, and the Small Business Administration. We are not an 
independent operator. We administer the Servicemen's Group Life 
Insurance program and are prepared to deliver benefits for any of the 
2.25 million men and women of all Services and Components, who are 
insured through it. And, together with DoD, we operate two of the 
Nation's largest health care systems--one for health care to meet 
operational commitments and one to deal with the long-term health care 
effects of those operations. As a result, we are a participant with HHS 
in discussions of how to best deliver health care. VA's budget 
requirements are largely determined by the operational missions 
performed by the courageous men and women in the DoD and the 
entitlements and benefits which accrue to them for taking those risks. 
Additionally, VA is uniquely positioned to help with ideas and a model 
for providing more Americans with better, more cost-effective health 
care, something VA has long pursued on behalf of veterans.
    Largely hidden from public view is an enormous VA effort to improve 
management infrastructure and implement a Departmental model of 
management that insures significant improvement in human resources, IT, 
acquisition, financial and facilities management. This effort is 
critical to strengthening both our performance and accountability 
mechanisms across VA.
    In all our missions, VA seeks to become more transparent by 
providing veterans and stakeholders more information about our 
performance than ever before. We want veterans to have the information 
they need to make informed decisions. We will be sharing more data 
about the quality of VA health care than ever before. Using our own Web 
sites, we are displaying information on quality including Health 
Effectiveness Data and Information Set (HEDIS) scores, wait times, and 
Joint Commission results.
    Another element of transparency is disclosure when mistakes are 
made. We have aggressively disclosed problems with the reprocessing of 
endoscopes and with brachytherapy at several sites. These issues were 
found by our own staff and then publicly disclosed. In each of these 
cases, we notified Congress, the media, VSOs, and the patients. While 
this process is at times painful, it is the right thing to do for 
veterans and the Nation and will ultimately result in greater trust and 
better quality.

                                Summary

    Our mission is to serve veterans by increasing their access to VA 
benefits and services, to provide them the highest quality of health 
care available, and to control costs to the best of our ability. Our 
efforts will remain focused on transforming VA into a 21st century 
organization--People-centric, Results-driven, and Forward-looking, and 
further refinement of our strategic plan to achieve our commitments and 
provide metrics for holding ourselves accountable. We are applying 
business principles that make us more efficient and effective at every 
opportunity.
    However, transforming VA and the current pace of military 
operations have required new levels of resources. The care of veterans, 
like the sacrifices they make on behalf of the Nation, endure for many 
years after conflicts are resolved. This investment in our veterans 
will, over time, provide increasing returns for them, for the Nation, 
and for VA. Providing veterans the care and benefits they have earned 
is a test of our character.

                                 <F-dash>
   Statement of Hon. Harry E. Mitchell, a Representative in Congress
                       from the State of Arizona

    Thank you Mr. Chairman.
    I would like to thank the Members of the Committee, Secretary 
Shinseki, and those in the audience, for being here today.
    The Department of Veterans Affairs was supposed to implement the 
much anticipated Post-9/11 GI Bill by August 1, 2009, delivering 
thousands of veterans their much deserved education benefits.
    However, we have recently been made aware of problems with the 
timeliness of payments to students and their educational institutions. 
I have heard from many of these students in my district, the 
frustrations of not receiving their payments in time.
    It has added a layer of stress to our veterans, at a time when they 
should be worried about their studies, not their rent.
    This is, of course, not the only issue facing the Department. I 
hope to hear today about what the Department of Veterans Affairs is 
doing to improve internal backlog of claims. With the total number of 
claims reaching a million, I am eager to hear what the Department is 
doing to cut bureaucratic red tape.
    With Chairman Filner's leadership, we took a big step this year by 
passing a funding bill that not only adds $14.5 billion, but also 
includes $48.2 billion in advanced funding. This advance funding will 
help ensure timely and predictable funding for veterans' health care, 
something that should never be put at risk because of partisan budget 
debates in Washington.
    But clearly we still have a lot of work to do, and that's why I am 
looking forward to today's hearing.
    I yield back the balance of my time.

                                 <all>

</pre></body></html>
